<html>
<title> - AFRICA'S NEWEST NATION: THE REPUBLIC OF SOUTHERN SUDAN</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
         AFRICA'S NEWEST NATION: THE REPUBLIC OF SOUTHERN SUDAN

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                            AND HUMAN RIGHTS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 16, 2011

                               __________

                           Serial No. 112-90

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
66-903                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e186918ea18294929589848d91cf828e8ccf">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

        Subcommittee on Africa, Global Health, and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
JEFF FORTENBERRY, Nebraska           DONALD M. PAYNE, New Jersey
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             RUSS CARNAHAN, Missouri
ANN MARIE BUERKLE, New York


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Eduardo Hiiboro Kussala, bishop, Diocese of Tambura-Yambio...    14
Mr. John Eibner, chief executive officer, Christian Solidarity 
  International--USA.............................................    23
Ms. Dana Lyons Wilkins, campaigner, Global Witness...............    29
The Honorable Roger Winter (former Special Representative on 
  Sudan, U.S. Department of State)...............................    36
The Honorable Princeton Lyman, Special Envoy for Sudan, U.S. 
  Department of State............................................    45

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Frank Wolf, a Representative in Congress from the 
  Commonwealth of Virgnia: Letter to President Obama submitted 
  for the record.................................................    11
Mr. Eduardo Hiiboro Kussala: Prepared statement..................    17
Mr. John Eibner: Prepared statement..............................    25
Ms. Dana Lyons Wilkins: Prepared statement.......................    31
The Honorable Roger Winter: Prepared statement...................    39
The Honorable Princeton Lyman: Prepared statement................    49
Ms. Rajakumari Jandhyala, Deputy Assistant Administrator, Bureau 
  for Africa, U.S. Agency for International Development: Prepared 
  statement......................................................    70

                                APPENDIX

Hearing notice...................................................    90
Hearing minutes..................................................    91


         AFRICA'S NEWEST NATION: THE REPUBLIC OF SOUTHERN SUDAN

                              ----------                              


                        THURSDAY, JUNE 16, 2011

              House of Representatives,    
         Subcommittee on Africa, Global Health,    
                                   and Human Rights
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:15 p.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order. Good 
afternoon, ladies and gentlemen. We are holding today's hearing 
for the purpose of focusing on the creation and showing our 
solidarity with the creation of the new nation on the African 
continent, but also of assessing its myriad of challenges in 
transitioning successfully to independence.
    Recent brutal attacks by the Khartoum government on 
disputed areas in the North-South border area have raised 
alarms about renewed violence in this country that already has 
suffered far too much. For decades, the Government of Sudan in 
Khartoum has waged war, genocide against the people of Southern 
Sudan and facilitated the enslavement of its people. Even as we 
meet today, the regime of President Omar al-Bashir is seizing 
territory, causing the displacement of more than 100,000 people 
and killing countless other Black Sudanese.
    Sudan, geographically the largest country in Africa, has 
been ravaged by civil war intermittently for 4 decades. The 
first Sudanese civil war occurred during the period of 1955 to 
1972 and the second ran from 1983 to 2005. More than 2 million 
people have died in Southern Sudan over the past 2 decades 
alone due to war related causes and famine, and millions have 
been displaced from their homes.
    Since 1989, the United States has maintained multiple 
sanctions against the Government of Sudan because of human 
rights concerns in Southern Sudan, as well as the western 
region of Darfur and Sudan's support for international 
terrorism.
    I have had face-to-face meetings with General Bashir in 
Khartoum pushing for lasting peace and an end to the abuses of 
his government. Unfortunately in that meeting he was far more 
interested in discussing the end of U.S. sanctions than he was 
in discussing how to end the suffering that his government and 
the rebel groups it sponsors have inflicted on countless 
innocent lives.
    Beginning in 1995, human rights organizations have raised 
the issue of kidnapping of African Southerners by Arab elements 
from the North in conjunction with the second civil war between 
the North and the South.
    I would note parenthetically that right here in this room, 
in 1996, I actually held the first hearing on chattel slavery 
in Sudan, with the focus also on Mauritania, but we did focus 
primarily on Sudan. And we heard from men and women and mothers 
who had had their children kidnapped and sold into slavery. It 
is now estimated that between 11,000 and 35,000 Sudanese are 
being held against their will and subjected to vicious 
exploitation and violent abuse in the North.
    The Khartoum government claims that slavery is the product 
of intertribal warfare, which is not under its control. 
However, credible sources indicate that the Government of Sudan 
was involved in arming and otherwise backing numerous militia 
groups involved in kidnapping and enslaving these Southerners. 
Regardless of who initiated their enslavement, their freedom 
must be secured as part of the South's declaration of 
independence.
    One Sudanese slave, Simon Deng, escaped and is now living 
in freedom in the United States. Deng said that every night 
while he was in captivity he would go to sleep thinking maybe 
tomorrow someone will come to my rescue. He now goes to sleep 
thinking of those fellow slaves left behind, knowing that they 
are thinking and dreaming the same thought, living on that same 
hope that tomorrow someone will come to rescue them.
    These people enslaved in the North must not be forgotten in 
the celebration and the inauguration of a new country. The 
United States and the rest of the international community must 
not let their suffering continue.
    On January 9th, South Sudan, as we all know, held a 
peaceful and transparent referendum on Southern secession as 
called for in the 2005 Comprehensive Peace Agreement. According 
to the South Sudan Referendum Commission, 98.8 percent voted 
for secession. In early February, Sudanese President Bashir 
officially accepted the result of the referendum. The United 
States, the African Union, the European Union, the U.N., and 
others endorsed the result as well. On July 9, 2011, the 
Republic of South Sudan will officially declare its 
independence.
    Unfortunately, a mutual military buildup, occasional 
clashes and unresolved issues from the CPA led to a tense 
atmosphere in the Abyei region. On May 19th, according to the 
U.N. report, a Sudanese Armed Forces Joint Integrated Unit 
convoys, accompanied by U.N. peacekeeping forces, was attacked 
by the SPLA outside of Abyei. The Northern military unit was 
being moved to a newly agreed upon position. The Sudan People's 
Liberation Army denied deliberately attacking the Northern 
military unit as retaliation for an earlier SAF attack on an 
SPLA Joint Integrated Unit, but that May 19th attack took place 
in an area controlled by the Southern Sudan police force.
    As usual, the Khartoum government has vastly overreacted. 
Northern military forces invaded Abyei, displacing as many as 
100,000 people and began moving Arabs into the area. This ethic 
cleansing of the Abyei area will have a far reaching impact on 
the resolution of this dispute. The indiscriminate bombings in 
Southern Kordofan, attacks in the Nuba Mountain area and 
reported door-to-door murders of non-Arab Africans is creating 
a scene as horrific as any during the civil wars.
    We are nearly on the eve of independence for South Sudan, 
yet many issues remain unresolved. There is the undefined 
border, citizenship questions regarding Southerners living in 
the North, governance issues for the post-independence nation, 
equitable sharing of oil revenues, the question of liberation 
and repatriation of Sudanese still held in bondage and, of 
course, the continuing Northern military attacks.
    The United States, one of the guarantors of the CPA, has a 
great deal at stake in South Sudan's successful transition to 
independence. Since 2004, the U.S. has spent $9.8 billion in 
humanitarian and other assistance. But that monetary investment 
is far outweighed by the moral commitment to see this 
transition through to a successful conclusion. Now we must do 
all that we can to help this new nation come into being in 
peace and help its government to safeguard the life, liberty 
and fundamental human rights of its people.
    I would like to now yield to my friend and colleague, Mr. 
Payne, for his opening comments.
    Mr. Payne. Thank you very much, Mr. Chairman. Thank you for 
holding this important hearing. This is a very critical moment 
in the history of Sudan. Many of us have been dealing with 
Sudan for many, many years. And I see my colleague, Mr. Wolf, 
who has been on the battlefield for this issue for so many 
years. And I want to also express my deep appreciation to the 
witnesses who certainly are among the most knowledgeable people 
on Sudan. Ambassador Lyman, the Honorable Roger Winter, former 
Special Representative on Sudan, USAID Deputy Assistant 
Administrator, Ms. Rajakumari Jandhyala, have all been deeply 
engaged in the intense international struggle to bring justice 
and peace to the people of Sudan. I would also like to thank 
the private panel witnesses whose engagement is vital in 
bringing peace and development to the people of Sudan and the 
individuals who for many, many years NGOs have made a 
tremendous goal in working toward a solution to the problems in 
Sudan. And we appreciate all the work that they have done over 
the years. I would like to thank all of you for your commitment 
and selfless determination to make peace in Sudan a reality.
    I spoke to President Salva Kiir yesterday. He told me that 
he is committed to a peaceful resolution of the crisis. Later, 
I will mention some other issues we discussed. But he is 
determined to withhold any retaliation because he wants to see 
a peaceful transition and the new independent state go into 
being without disruption.
    Today Sudan is at a crossroads. In less than 23 days, on 
July 9, 2011, the world will witness the birth of a new nation, 
the Republic of South Sudan. With independence day rapidly 
approaching, a myriad of issues remain unresolved. Yet, let us 
not forget that the referendum that facilitated this secession 
is a sign of tremendous progress, the peaceful nature of the 
referendum in which a stunning 98.8 percent of South Sudanese 
voted for independence was a testament of the great hope and 
excitement that lies in the hearts of the people of South 
Sudan.
    Unfortunately, recent violence in Abyei and Southern 
Kordofan also remind us of the important work that remains to 
be done to ensure a peaceful transition to statehood.
    My first visit to Sudan was in 1993, when the SPLA 
controlled a town near the Ugandan border. That was the 
frontline at that time. I saw the suffering of citizens 
firsthand. Since then, I have visited liberated areas over a 
dozen times, but never to Khartoum. I refuse to go to Khartoum 
because I refuse to recognize an illegitimate government and I 
will never step my foot into that city.
    With deep sadness, though, I remember visiting Abyei in May 
2008 just after the town had been attacked and burned to the 
ground by Bashir's forces and pro-government militia. And we 
have some photos that we took. And this was 3 years ago. And 
the same thing happened several days ago. The people of Abyei 
have suffered and suffered. And the suffering should end. It is 
wrong. It is absolutely wrong. These pictures from that sad day 
depict the physical and human devastation caused by the 
bombing. The atrocity displaced more than 40,000 people. And 
upon return, I introduced a resolution to highlight this 
heinous act of violence. We must remember the human cost of 
such acts of aggression.
    The people of Abyei have suffered severely after prolonged 
civil war. For many of the displaced, the right to return home 
is increasingly becoming more and more difficult. We do not 
want to see Abyei turn into another longstanding dispute like 
Kashmir.
    Compounding this is the recent fighting in Southern 
Kordofan, the latest flash point in this conflict. Humanitarian 
organizations on the ground have reported that just 2 days ago, 
northern forces detonated as many as 52 bombs, leaving as many 
as 7,000 people without access to food, water and shelter. 
There are disturbing reports of Northern forces going door to 
door to find and kill SPLM supporters, as well as denying and 
manipulating humanitarian assistance and aid.
    The new violence is by no means an isolated or localized 
incident. Bashir has done this before; many, many times. 
Remember Darfur. The people of Darfur are still suffering and 
many remain in displaced camps on the border of Darfur in Chad.
    South Sudan's President, Salva Kiir, has shown considerable 
restraint thus far because he does not want to go to war and 
seeks a peaceful resolution to the crisis. As I mentioned, I 
spoke to President Salva Kiir yesterday. He confirmed the level 
of violence and aggression by the Bashir regime in Southern 
Kordofan and Abyei.
    The U.S. must support the people of Southern Sudan by 
providing support in the security sector so that they can 
better defend themselves. In 2008, President Bush approved a 
request by the South for an air defense system. To this day, 
this pledge has not been fulfilled. The South purchased tanks, 
but the Obama administration has not allowed the tanks to be 
delivered from Kenya to South Sudan.
    We cannot stand by idly as Bashir continues his aggression, 
brings in his weapons, brings in his planes, brings in his 
tanks, and the U.S. Government said that the South Sudanese 
cannot have a few tanks to try to protect themselves. It is 
wrong.
    Ambassador Lyman, I look forward to hearing the latest 
update on Abyei and Southern Kordofan. The outstanding issues 
seriously endanger the viability of peaceful relations between 
the North and the South. We must use all available diplomatic 
and political tools, including possible sanctions and other 
accountability measures, to ensure progress in the remaining 
CPA negotiations.
    Despite recent fighting, the U.N. has continued to provide 
vital aid in the region. In order to ensure an effective 
peacekeeping mission after July 9th, the new UNMIS mission must 
include a Chapter 7 mandate to adequately protect civilians. 
Looking past July 9th, the governor of South Sudan will need 
our support in order to meet the demands of the people.
    South Sudan continues to have some of the worst human 
development indicators in the world. In a country ravaged by 
decades of war, the challenges are daunting. The U.S. and 
international community must help the Government of South Sudan 
provide its people with health care, education and prosperity 
in order to ensure peace. South Sudan will need to build 
infrastructure and to provide employment opportunities.
    In an emerging country where oil deposits account for 
roughly 98 percent of the region's revenues, we must also work 
to ensure the new developing economy will be diversified and 
include sustainable land use, agricultural development and 
conservation, thus ensuring stability and shared benefits for 
the South Sudanese people. Let us not forget that peace will 
depend not only on troops, but on development.
    The United States Government, backed by the steadfast 
support of the American people, have long been a critical 
partner in the Sudan peace process. We must reinforce our past 
investments in diplomacy and development to ensure that the 
current progress evolves into stability and continued growth.
    In less than 23 days, South Sudan will become the newest 
nation in the world. Like any newborn, the country will be 
fragile and weak and they will need our continued support for 
decades to come. We must remain engaged and commit our support 
to democracy, rule of law, justice, and peace for the people of 
South Sudan.
    Thank you very much, And I look forward to hearing from the 
witnesses.
    Mr. Smith. Thank you, Mr. Payne. I would like to now yield 
to Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman, for convening 
this hearing. Mr. Chairman, my home State of Nebraska has the 
largest number of Southern Sudanese refugees in the United 
States. And the independence of Southern Sudan was closely 
followed back home and it is a true testament to the character 
of Nebraskans that they supported their neighbors before, 
during, and after that referendum. I have been particularly 
impressed by the civic engagement of local youth in particular 
as I hear frequently from students wanting to better understand 
Sudanese history and circumstances and how they could actually 
help themselves.
    I met recently with a young Nebraskan, 24 years old, who 
returned to Southern Sudan to bring needed access to clean 
water to his former community. I learned of a local Omaha 
church's work to bring portable hospital equipment and medical 
supplies to underserved areas of Southern Sudan as well. The 
Southern Sudan diaspora is strong in Nebraska and refugees, as 
well as their neighbors and new friends, want to help ensure a 
stable and successful independent state in whatever capacity 
they can.
    I wish, Mr. Chairman, the story of Southern Sudan's 
independence could all be good news as well, neighbor helping 
neighbor, the great humanitarian capacity of the human spirit, 
the extraordinary event of people realizing their highest 
democratic ideals. But sadly, it is not that easy.
    The grave conflict in Abyei and the resulting refugee 
spillover will finally receive much needed attention in this 
hearing. Knowing that Abyei would be the hotspot of any 
conflict, we have been watching this area very closely. And I 
know Ambassador Lyman has been working with painstaking care to 
broker peace.
    I look forward to learning more about a new temporary DA, 
Demilitarization Agreement, between the North and the South as 
the Sudanese People's Liberation Army, according to media 
reports, just said hours ago that it was readying for more 
fighting. Furthermore, in the last several days my office has 
received numerous alarmed reports from advocacy groups of 
imminent chemical warfare bombing, executions and ethnic 
attacks in the Nuba Mountains. Southern Sudan's Vice President 
has reported to the U.N. Security Council that ethnic cleansing 
was underway in the South Kordofan state, especially against 
Southern sympathizers in the Nuba Mountains.
    While this area is just north of what will be the North-
South border, I am intensely concerned that the scope of 
violent oppressive action against those with ties to the South 
is very real. While the extent to which these attacks have been 
perpetrated by the Sudanese Armed Forces or militia groups does 
remain unclear, the violence is a violation of the 
Comprehensive Peace Agreement and warrants immediate 
investigation.
    I am also concerned about the potential areas of conflict 
that are outside the current scope of international attention 
in the Upper Nile. Concerns have been expressed that certain 
breakaway groups, including the Nuer, haven't fully been 
absorbed into the emerging southern culture. Nascent conflicts 
in other lesser known areas could also threaten potential 
stability. The potential sources of ethnic conflict, including 
any imbalance of government power in Southern Sudan's dozens of 
ethnic groups, does loom.
    Sudan, of course, has many sad experiences with this. A 
major source of North-South conflict stems from colonial time 
when Northern groups were given preference in government 
positions over Southerners.
    I am keenly interested in hearing from our witnesses, in 
particular Ambassador Lyman, about the steps that the 
Government of South Sudan is taking to create a government 
inclusive of ethnic minorities, also women, to mitigate the 
risk of conflict that has historically marred too many post 
colonial independent African states.
    And importantly as we discuss the future of a healthy and 
vibrant Southern Sudanese state, we must also be clear that we 
want a future, stable and viable North. However, China's 
relationship with Northern Sudan is of particular concern. Just 
today China announced it would be welcoming President Omar al-
Bashir with an official state visit later this month to deepen 
``their deep and profound friendship,'' according to China's 
foreign ministry spokesman.
    Sudan is China's third largest trading partner in Africa, 
and China has been its largest arms supplier, as well as a 
major oil investor. Will China's unrestrained, mercantilistic 
agenda deepen this geopolitical conflict? It is an important 
question.
    Thank you again, Mr. Chairman, for convening this hearing 
that is of personal importance to many of my constituents, many 
of whom have suffered and sacrificed so much to have their 
chance to realize their democratic hopes manifested in an 
independent Southern state. I look forward to relaying the 
proceedings of this hearing to them.
    Mr. Smith. Thank you, Mr. Fortenberry. The chair recognizes 
Mr. Carnahan.
    Mr. Carnahan. Thank you, Mr. Chairman and Ranking Member 
Payne. Thank you for holding this hearing on the situation in 
Sudan. As the anticipated July 9 date of the South Sudan 
independence quickly approaches, I hope that we work toward a 
meaningful way forward in an important and conflict torn 
region.
    I have watched with growing concern as the deteriorating 
security situation has come to a head with recent violence in 
oil producing border regions. Where there have been reports of 
aggression attributed to both sides, it is clear that the 
North's Sudanese Armed Forces invasion of Abyei violated the 
terms of the Comprehensive Peace Agreement and has inflamed 
further security and humanitarian crises and warrants measured 
reevaluation of our policy toward Khartoum.
    The Sudanese people have endured many years of ethno-
religious violence, state-sponsored oppression and genocide 
that has resulted in the loss of as many as 2.5 million lives 
with millions of others displaced. With recent crises in Abyei 
and South Kordofan, these numbers continue to rise.
    It must remain a U.S. priority to support viable security 
agreements that advance implementation of the CPA. We look 
forward to hearing from our witnesses today on the status of 
our diplomatic and development efforts to these ends. We also 
hope to hear more about the work of the international community 
to complement our interests in Sudan.
    With the mandate for the U.N. mission in Sudan set to 
expire next month and the Sudanese Government maintaining that 
it will not allow an extension, I am particularly interested in 
hearing what role you think a U.N. mission could and should 
play in either the North or the South. I am also interested in 
hearing what role you think the African Union should have in 
any negotiations and peacekeeping.
    While improvements are certainly needed, UNMIS and other 
peacekeeping missions address some of our most challenging 
security situations and directly impact U.S. national 
interests.
    In closing, I would like to thank the panelists for their 
testimonies and presence here today. I hope that your answers 
and opinions will help us realize avenues toward stability and 
peace between the North and the South.
    Thank you. I yield back.
    Mr. Smith. Thank you very much. The chair recognizes the 
gentlelady from New York, Ms. Buerkle.
    Ms. Buerkle. Thank you, Mr. Chairman. And thank you for all 
you do on behalf of human rights throughout the world.
    The future of South Sudan is of great importance to me 
because of the Sudanese presence in the Syracuse area. Syracuse 
has been home to over 500 of the Lost Boys of Sudan. In fact, 
my district office has a graduate student interning with us by 
the name of Pierre Anthony, who is one of those Lost Boys.
    I am also pleased and very honored to have with us today in 
the hearing room a very prominent member of the Sudanese 
diaspora and a constituent of mine, Father Darius Makuja. 
Father is a professor of medieval theology at Le Moyne College 
in Syracuse. He holds master's and doctoral degrees in 
historical theology from St. Louis University. He has published 
work on the situation in Sudan, including an article in the 
journal Encounter entitled, ``Religious Fundamentalism and 
Political Hegemony: A Case of Islamic Fundamentalism and 
Conflict in Sudan.''
    Father Makuja is originally from Torit, near the Ugandan 
border. He is an important advocate for the South Sudanese in 
America, not only in assisting them but also in helping call 
attention to the challenges the South Sudan faces and will 
continue to face in the aftermath of obtaining its 
independence.
    In a referendum in January 2011, the Southern Sudanese 
people overwhelmingly voted in favor of independence from the 
North. South Sudan is due to gain its independence on July 9th. 
Tragically, bloodshed along the ill-defined border between the 
North and the South Sudan over the last 3 weeks has raised 
fears that the two longstanding rivals will return to open 
conflict. A number of sensitive issues between the North and 
the South remain unsettled, how to share oil revenues, where to 
draw the common border, and how to split the national debt.
    Moreover, Khartoum government forces seized the disputed 
region of Abyei, tanks and troops, on May 21st, causing tens of 
thousands of people to flee and drawing an international 
outcry. Despite the United States, the United Nations and 
Southern Sudanese officials calling on the North to withdraw, 
the North seems to be further entrenching itself. And it 
remains to be seen whether an agreement cannot only be reached, 
but also be abided by.
    The security situation remains grave with intense fighting, 
sporadic artillery fire, and a continuing military buildup 
along the contested border between the North and the South.
    For several years, the United States has engaged in 
humanitarian development and peacekeeping work in Sudan and has 
participated in efforts to resolve the civil war between the 
North and the South. The United States of America has a stake 
in seeing that the Republic of South Sudan becomes a 
successful, a stable, and a secure state.
    I thank our witnesses for being here today, and I look 
forward to hearing their testimony. I yield back my time.
    Mr. Smith. Thank you very much, Ms. Buerkle. The chair 
recognizes Congresswoman Bass.
    Ms. Bass. Thank you once again, Chairman Smith.
    For the past several years, the world has watched as 
conditions in Sudan have continued to deteriorate. Despite the 
hopeful passing of the peace referendum decision in January, 
the road to independence for South Sudan has not been easy. 
Recent government assaults on innocent civilians have increased 
the humanitarian and refugee crisis throughout Sudan and the 
region and destabilized the delicate balance of peace. My 
deepest condolences go out to the people of Sudan that have 
been affected by the recent violence. To those who were 
displaced, have lost family members or were wounded during the 
attack, my thoughts are with you.
    In addition to the violence of the Sudanese Armed Forces, 
the Sudanese Government continues to delay the implementation 
of aspects of the Comprehensive Peace Agreement and has taken 
steps to impede its progress. We must do all we can to ensure 
the peaceful transition of governments and the equitable 
division of resources to guarantee the safety and well-being of 
all Sudanese people.
    A good demonstration of democracy is a willingness to 
embrace change for the overall betterment of a country and the 
human rights of its citizens. I believe we must assist in the 
implementation of the Comprehensive Peace Agreement by urging 
both sides to end the violence and cease all military actions. 
We must continue providing U.S. assistance to promote stable 
governance in South Sudan, strengthening multilateral 
international engagement, and preventing terrorists from having 
a safe haven in Sudan.
    I support President Obama's statement yesterday insisting 
that both sides must be held accountable to their international 
obligations and agreements. The United States must remain 
active and expand our diplomatic engagement in Sudan, along 
with our United Nations partners. We must have the opportunity 
to play a key role in advancing a healthy democracy, economic 
growth, and a peaceful and prosperous future for the Sudanese 
people in the region.
    I look forward to hearing from all of the witnesses today 
and learning more about the current conditions in Sudan, as 
well as how the U.S. can promote the peaceful independence of 
the Republic of South Sudan. Thank you.
    Mr. Smith. Thank you very much, Ms. Bass. I would like to 
now recognize Congressman Frank Wolf, who is chair of the 
Subcommittee on Commerce, Justice, Science, and Related 
Agencies on the Appropriations Committee. Mr. Wolf.
    Mr. Wolf. Thank you, Chairman Smith. I want to thank you 
for your actions on this issue and so many others, but being 
the first out of the box to deal with this. And I also want to 
publicly thank Congressman Payne for his faithfulness over the 
years on this issue in good times as well as bad times.
    I remember reading Samantha Power's book, ``A Problem from 
Hell: America and the Age of Genocide.'' Her frustration at the 
lack of U.S. action in the face of human suffering was palpable 
and understandable. She examined cable traffic and State 
Department press guidance, which eliminated any doubts that the 
horrors taking place in countries like Rwanda were not unknown 
to policymakers like U.N. Secretary General Kofi Annan, who 
knew what was taking place in Rwanda, and former Secretary of 
State Warren Christopher, who also knew what was taking place. 
Bill Clinton had the good sense of going to Rwanda and 
apologizing for the lack of action by his administration.
    Have we learned nothing yet? Are we ready to see another 
Rwanda? Today in Sudan we see unfolding before us what can only 
be described as a recurring nightmare in that country, a 
genocidal government hell-bent on maintaining its grip on 
power, treating civilian populations as mere collateral damage. 
And in the face of these murderous policies in Abyei and 
Southern Kordofan and the Nuba Mountains, the White House can 
hardly muster more than a Friday night 7:45 press statement by 
the Press Secretary and not by the President of the United 
States to come out and in the Rose Garden and say what should 
be said. Press statements released at 7:35 Friday in this town 
communicate to me volumes about the priority, or the lack 
thereof, of the matter at hand.
    Last week, with news reports of a rapidly deteriorating 
situation in Sudan, I wrote President Obama urging him to act 
swiftly to dispatch former Secretary of State Colin Powell to 
Sudan to attempt to secure a peaceful resolution of the crisis 
and salvage the Comprehensive Peace Agreement in the weeks 
remaining before South Sudan can become an independent nation.
    Don Payne was there at the signing. Secretary Powell was 
there at the signing. Roger Winter was there at the signing. 
Secretary Powell, given the opportunity and given the sticks, 
may very well be able to deal with this, and yet the response 
from the White House is zero, zero, zero.
    I submit a copy of that letter for the record.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Wolf. Not only is engagement at the highest levels 
needed, but the engagement must include sticks. We have seen 
time and time again that dangling carrots before an indicted 
war criminal, Bashir, will never yield the desired results.
    My sense of urgency is even greater today. This week, I had 
the opportunity to meet a young man who was an intern in my 
office. He has been living in Sudan for the last 2 years 
engaged in humanitarian and development work. He is back in the 
States briefly but remains in close contact with folks in 
Sudan, including in areas that are presently cut off from the 
rest of the world. What I heard from these sources is bone 
chilling. Door to door targeted killings of the SPLM 
supporters, mass graves, Antonov bombers indiscriminately 
shelling civilian populations; in short, an unfolding tragedy 
of the highest order right before our eyes, and the 
administration knows it.
    And when we look at this and Samantha writes her next book, 
the cables will show what we now know and what no one is doing 
anything about.
    The committee has before it today several distinguished 
witnesses, including my friend Roger Winter. These panelists 
will undoubtedly urge the administration to consider a variety 
of policy options to stem the killing and avert a mass 
humanitarian crisis. I pray they will be given every 
consideration.
    And the thought that China is welcoming Bashir--I did not 
know it until Congressman Fortenberry said it--is incredible. 
What more do you need to know? China has been aiding them with 
regard to the Antonov, with regard to the Soviet Hind 
helicopters, with the AK-47s, and supporting the genocide in 
Darfur, the number one supporter of the genocide in Darfur that 
many people are so concerned about, the Chinese Government. And 
keep in mind, Hu Jintao, the President of China, was the 
architect of the policies to really bring about the destruction 
of Tibet. And you had the 2009 Nobel Prize winner, President 
Obama, holding a steak dinner for Hu Jintao when the 2010 Nobel 
Prize winner was in jail and his wife was under house arrest, 
and now we find that they are welcoming Bashir. What more do we 
need to know? Lives hang in the balance.
    Mr. Chairman, I appreciate you having these hearings.
    Mr. Smith. Chairman Wolf, thank you very much for your 
statement and for your leadership on human rights. Let me just 
note that originally Special Envoy Princeton Lyman was 
scheduled to testify first. He was called to the White House. 
So we have reversed the order and we will invite what was Panel 
2 to become Panel 1. I would like to--if they could make their 
way to the witness table--just recognize Bishop Andudu Adam 
Elnail, whose diocese actually represents the Nuba Mountains, 
among other areas, and Bishop Abraham Nhial Yel, whose--these 
are both Episcopal bishops whose diocese includes Abyei. If 
they wouldn't mind standing. I know they are here. And thank 
you for your tremendous leadership.
    I would like to now introduce our very distinguished and 
knowledgeable panel, beginning with Bishop Eduardo Hiiboro 
Kussala, who is originally from Southern Sudan. When he was 
just 9 years old, his mother was killed in a Northern 
government military raid on his village. His family fled Sudan 
and eventually settled in neighboring DRC. Bishop Hiiboro's 
family eventually returned to Sudan and he became a priest in 
1994. After serving refugees in the Central African Republic, 
he returned to Sudan where he has been an outspoken and totally 
courageous advocate in demanding protection for his people. We 
welcome the bishop to our panel, and thank him for being here.
    We will then hear from Dr. John Eibner, Christian 
Solidarity International. He is the CEO for CSI in the United 
States. He has traveled to Sudan over 100 times since 1992, 
often working in frontline situations to document slavery and 
other gross human rights abuses. Dr. Eibner played a leading 
role during the last civil war to raise awareness of these 
human rights issues among the public and policymakers. Dr. 
Eibner also served as CSI's main representative at the United 
Nations in Geneva and has written extensively on human rights 
issues for a range of well-known publications. I would note 
parenthetically that both Chairman Wolf and I have traveled to 
many human rights abusing countries around the world with CSI, 
including China in the past. So we welcome you, Dr. Eibner.
    Then we have Ms. Dana Wilkins, who is a campaigner for 
Global Witness, an NGO that works to prevent natural resources 
from fueling conflict and corruption. Ms. Wilkins recently 
returned from Southern Sudan where she did extensive advocacy 
and information exchange with government officials, local civil 
society, and members of the donor community. Ms. Wilkins has 
been working to ensure that there is transparency and 
accountability in Southern Sudan's oil sector after 
independence to help prevent a return to war and also to 
provide equity and fairness to the people from those reserves.
    Then we will hear from Ambassador Roger Winter, who first 
went to Sudan in 1981 to do humanitarian work for a nonprofit 
group, which we all know and respect on this committee, the 
U.S. Committee for Refugees. Ambassador Winter continued his 
work until early 2001, when he became Director of the U.S. 
Office for Foreign Disaster Assistance at USAID. While at the 
office in that role and subsequently as Assistant Administrator 
at USAID, Ambassador Winter participated on the U.S. team--led 
the team--to what then became the 2005 Comprehensive Peace 
Agreement. Ambassador Winter has served as the U.S. Special 
Representative on Sudan from 2005 to 2006, when he retired.
    I would just note that all of our witnesses have very 
extensive biographies, which will be made a part of the record. 
But to allow maximum time for your testimony and questions, 
they will be made a part of the record. So, Bishop, if you 
could begin.

 STATEMENT OF MR. EDUARDO HIIBORO KUSSALA, BISHOP, DIOCESE OF 
                         TAMBURA-YAMBIO

    Bishop Hiiboro. Thank you, Chairman Smith, for calling this 
important and timely hearing concerning the Sudan and for 
giving me the opportunity to testify before this committee on 
behalf of the people of South Sudan. I also would like to thank 
the ranking member, Mr. Payne, and all the members of the 
subcommittee for their longstanding commitment to the welfare 
of my people.
    With the committee's permission, I would like to enter my 
full written testimony for the record, and I will summarize it.
    Mr. Smith. Without objection, so ordered. And that goes for 
all of our distinguished witnesses.
    Bishop Hiiboro. My name is Bishop Eduardo Hiiboro Kussala. 
I am the bishop of the Catholic Diocese Tambura-Yambio in 
southwestern Sudan. And I am very grateful to have come from my 
native Sudan to share with you the gratitude, the hopes and the 
concerns of the new nation. The Sudanese church in her 
prophetic role has accompanied the Sudanese people in times of 
peace and war. The church has been building peace, providing 
basic services and serving millions of Sudanese people across 
the generations.
    As international aid actors come and go, it is an 
indigenous church sharing the hopes, the suffering of the 
people, giving voice to those often who are not heard. I have 
come here definitely to thank you, the American people, and 
express to you the hopes of the people of South Sudan. We thank 
you for the efforts you did in order to get for us, with our 
own collaboration and yours, the referendum successfully done.
    Our hope in South Sudan is that we are going to have a 
nation of our own since time immemorial, a country that would 
hope to be a country of dignity, peace, freedom and human 
prosperity. The achievement of the referendum was a collective 
effort for which we thank you and ask you then that the 
homework is not finished. We are seeing the responsibilities 
that come to us as people of South Sudan to be accountable, 
transparent and consistent in building a nation of dignity and 
peace. And we can all do this very well with your 
collaboration.
    And my visit here, definitely, is to invite you, the 
American people, the American Government to be consistent, to 
persevere, and to remain focused on the cause of the people of 
Sudan. You all have very well expressed and discussed the 
problems that we have gone through. I want to recommend an 
immediate stop to the violence that is going on within Sudan at 
the moment. I would like to recall what we have gone through 
and to ask you that it is time to stop it. If we do not stop 
this war, it is quite clear that it will spread and go beyond 
control. There is a possibility that there is this intolerance 
within South Sudan. Let us seize this opportunity and stop this 
war and give Sudan what it has lacked for decades.
    And I would like to express what has been missing on the 
accord that was signed in 2005, the Comprehensive Peace 
Agreement. Many of the things that have not been implemented 
remain a stumbling block. If we can remain focused and have 
those things realized, we can save South Sudan the possibility 
of enjoying its future. And we can also guarantee a stable 
Northern Sudan that can protect the regional members from going 
into conflict.
    I want to underline the importance for the support of the 
displaced and refugees. The humanitarian support has to 
continue. And as much as we know, under the name for peace and 
development, the hope for the people of South Sudan is that 
July 9th will be the end of the decades of suffering and pains 
of our people and is a moment in which we can say the past is 
gone and now we can have a new life.
    The fear that grows around us can be stopped if this House, 
if the Congress, if the American people can be consistent, I 
repeat.
    I want to conclude with a special appeal that July 9th 
should be an opportunity for the Government of the United 
States and our friends to guarantee peace in that part of 
Africa and that the peace will serve as a balance rod for the 
rest of the countries in the region.
    Having ended Africa's longest war, Africa's largest country 
is at a crossroads. The road after the violence and suffering 
of our past has been a long one. But with the continued support 
and ongoing commitment of the Congress, we can all help bring 
millions of South Sudanese a chance to enjoy the hope and the 
freedom of justice and peace it sorely deserves and has long 
awaited.
    I was born into this war. I lost my mom in the war and I 
have grown as much as I am in the refugee camps in the most 
difficult areas. And I represent millions of orphans in my 
country who have gone through the same history. My story is a 
story of the people of South Sudan and the people of the Sudan. 
Sudan must not return to war again so they will not lose many 
mothers and children due to this war. And that is my interest. 
And I pray that this House will continue consistently to extend 
and to get Sudan stable and into freedom.
    Thank you and God bless you.
    [The prepared statement of Bishop Kussala follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Bishop Hiiboro, thank you so much for your 
eloquent testimony and thank you for the blessing. We know that 
South Sudan is in all of our prayers. And there is a lot that 
divides the House and the Senate and Congress these days, but 
we are--we will be praying very hard for peace and 
reconciliation and that has been led by the church. So I thank 
you so much.
    Dr. Eibner.

    STATEMENT OF MR. JOHN EIBNER, CHIEF EXECUTIVE OFFICER, 
            CHRISTIAN SOLIDARITY INTERNATIONAL--USA

    Mr. Eibner. Thank you, Mr. Chairman, for affording me the 
opportunity to testify about slavery. I am particularly pleased 
that my anti-slavery colleagues, Diane Gooch and Joe Madison, 
are with us today.
    Slavery, an internationally recognized crime against 
humanity, continues to blight the lives of tens of thousands of 
Southern Sudanese. It furthermore darkens the prospect of a 
genuinely comprehensive and sustained peace and threatens the 
security of Africa's newest nation.
    May I begin by introducing Achol Deng, a liberated slave? 
For about 15 years, Achol served a master in Northern Sudan. 
She was threatened with death. She was gang raped, genitally 
mutilated, forced to convert to Islam, renamed Mariam and was 
racially and religiously insulted. She lost the sight in one 
eye when her master thrashed her face with a camel whip for 
failing to perform correctly Islamic rituals. This mother of 
four said she saw two of her children beaten to death for minor 
misdemeanors. She lost the use of one of her arms when her 
master took a machete to it because she failed to grind grain 
properly.
    As Sudan enters a new era of crisis on the eve of Southern 
independence with fresh waves of violence, it is timely to 
revisit the slavery aspect of what Francis Deng calls Sudan's 
war of visions, a cultural conflict that transcends the late 
North-South civil war, a battle that continues today.
    Senator Danforth, a Special Envoy for Peace in Sudan, 
understood the true significance of slavery. In his report to 
the President, he rightly identified progress on the 
eradication of slavery as one of his four tests of the 
willingness of the belligerents to embark on a course of peace.
    In accordance with the Danforth recommendations, the U.S. 
Government sponsored an investigation by the International 
Eminent Persons Group on slavery. Their findings largely 
corroborates CSI's. They observed that slave raiding in Sudan 
was government sponsored and ``commonplace.'' Slavery, they 
also noted, included a disturbing pattern of abuse very much 
like that endured by Achol Deng.
    The Eminent Persons proposed a comprehensive policy for 
eradicating slavery and stated,

        ``Eliminating the abuses described in this report will 
        require major political initiatives on the part of both 
        the Government [of Sudan] and of the SPLM/A. The 
        initiatives we propose can only succeed with assistance 
        from the international community. This assistance must 
        be substantial, long term, carefully conceived and 
        above all rigorously monitored.''

    Regrettably, Mr. Chairman, neither have major political 
initiatives nor significant long-term carefully conceived 
assistance been forthcoming. While the CPA created the historic 
opportunity for ending the civil war, it failed to include a 
mechanism for the liberation and repatriation of slaves.
    Some bold efforts were made following the signing of the 
CPA to restore slavery to the peace agenda of Khartoum, Juba 
and the international community. I have mentioned several of 
them in my written submission, including H.R. 3844 of 2007, 
sponsored by Mr. Smith and co-sponsored by Ms. Watson. But 
these constructive initiatives failed as a result of lack of 
political will in Congress and in Washington generally.
    The signing of the CPA did, however, have a beneficial 
anti-slavery byproduct. It produced an end to slave raids in 
Southern Sudan. But those already enslaved during the war and 
their offspring remained in bondage. According to Southern 
members of the Sudanese Government's former showcase anti-
slavery organ, the now dissolved Committee for the Eradication 
of the Abduction of Women and Children, over 35,000 slaves from 
Northern Bahr El-Ghazal alone remain in bondage. In addition, 
slavery is used as a weapon of war against black Africans in 
Darfur. The enslavement and horrific abuse of Sudanese tactics 
of the Lord's Resistance Army in Equatoria, which I am sure the 
Bishop can speak a very long time about, is another appalling 
and neglected facet of Sudan's slavery problem.
    I would encourage members to search for ways to implement 
the constructive proposals set forth in the report of the 
Eminent Persons, in particular the need for a financially 
transparent and functional Sudanese national institution for 
locating and liberating slaves, a program of research on all 
aspects of Sudanese slavery, an institution with international 
and indigenous components to monitor slavery and its 
eradication, and finally an American or international mechanism 
to follow up the Eminent Persons' recommendations.
    Twelve years ago, Ambassador Susan Rice came face to face 
with liberated slaves in Marial Bai, Southern Sudan. She 
pledged then that the United States would work tirelessly to 
stamp out slavery in Sudan. Let us strive to achieve the goal 
established by Ambassador Rice. Failure to eradicate slavery 
with all its overtones of racism and religious bigotry will 
leave in Sudan a deadly cancer destroying possibilities of 
reconciliation and undermining chances of sustainable peace and 
stability for the new state in Southern Sudan.
    Thank you, Mr. Chairman, for giving me the opportunity to 
testify and also for all you and your colleagues do to achieve 
the eradication of slavery in Sudan and elsewhere.
    [The prepared statement of Mr. Eibner follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Dr. Eibner, thank you very much for your 
testimony and your leadership and for ensuring that we try to 
stay focused on this horrific issue of slavery. Thank you so 
very much.
    Ms. Wilkins.

STATEMENT OF MS. DANA LYONS WILKINS, CAMPAIGNER, GLOBAL WITNESS

    Ms. Wilkins. Mr. Chairman, members of the committee, I am 
honored to appear before you today to discuss the importance of 
the responsible management of natural resources in what will 
soon be the world's newest and most oil dependent state.
    In order to support stability and development in South 
Sudan, the U.S. must ensure that explicit transparency and 
accountability requirements are included in both the new legal 
framework governing the country's oil sector and the new North-
South oil deal. South Sudan is currently crafting its new 
petroleum law with a hope to complete it before July 9th. The 
development of this new legal framework is a critical 
opportunity for the country to demonstrate its commitment to 
democratic principles and to the responsible governance of its 
most important sector.
    With more than 98 percent of its budget derived from oil, 
as Congressman Payne pointed out earlier, South Sudan will be 
the most oil dependent country in the world. Many analysts are 
suggesting that for this reason and because of limited 
capacity, weak institutions, and alleged widespread corruption, 
the country will be born a failed state.
    Global Witness has repeatedly documented how this state 
failure occurs elsewhere--in countries where natural resource 
wealth is not managed in a transparent and accountable way, the 
results can be not only entrenched poverty and failed 
development efforts, but political instability and even large-
scale conflict.
    However, this does not have to be the case in South Sudan. 
If the legal framework developed now is robust and 
comprehensive, South Sudan has the potential to become a best 
practice example of a post-conflict country where oil revenues 
are governed responsibly and transparently.
    During my most recent trip to Juba at the start of this 
month, I had an opportunity to speak with many of the central 
figures involved in the development of this framework, and I 
believe the political will to institutionalize transparency is 
there. However, given so many competing priorities and 
distractions, and a limited drafting timeframe, the detailed 
legislative language necessary to guarantee the publication and 
verification of data may be overlooked.
    In order to support good governance in South Sudan's oil 
sector, the United States must prioritize technical and 
institutional capacity building through its foreign assistance 
and push hard for transparency and independent verification in 
the management of the sector through its diplomatic efforts.
    Transparency is not an end in itself. Its purpose is to 
allow ordinary citizens to see exactly how their natural 
resources are being managed, which in the case of South Sudan 
will be paramount in helping build public confidence in the new 
state.
    The publication of oil sector information also helps to 
prevent corruption and avoid the resource curse, thus driving 
development through a country's own natural resource wealth.
    The new law must explicitly require that detailed 
production, revenue and cost data, as well as the fiscal terms 
of contracts be published. But publication alone is not enough. 
For the oil sector to be sufficiently accountable, it must be 
independently monitored. For this to happen in South Sudan, 
there must be an office created independently from the Ministry 
of Energy and Mining whose sole responsibility is to monitor 
and verify the petroleum sector. While I was in Juba last, the 
Auditor General expressed his intention to establish a 
Petroleum Directorate which will do exactly that, and the 
United States must support him in this effort. This support 
should include funding if needed, technical assistance and 
training and, importantly, political backing for the new 
directorate to be guaranteed independence and access to 
information.
    So what else can the United States do? The U.S. could also 
have a significant impact on the ground by supporting local 
civil society groups. The establishment of a strong civil 
society watchdog will be critical for the accountable 
management of oil revenues and for combating corruption. The 
U.S. should also support South Sudan in signing up to and 
implementing the Extractive Industries Transparency Initiative, 
which would put many of the reforms I have spoken about on 
stronger institutional footing.
    Before I close, I would like to take this opportunity to 
emphasize the importance of transparency in the new North-South 
oil deal. The current deal, a 50/50 split of southern oil 
revenues has been managed almost entirely by the government in 
Khartoum and does not contain any transparency mechanism 
enabling either the government in the South or the public to 
verify that the revenues are being shared fairly. This lack of 
transparency and accountability has led to much mistrust and 
tension between the North and South, repeatedly threatening the 
fragile peace of the CPA. Given the North and South's shared 
reliance on oil revenues and the fact that more than three-
quarters of the oil is in the South but the major pipelines and 
ports of export are in the North, a fair and transparent oil 
arrangement which supports the economic viability of both 
parties would be a powerful incentive for sustained peace.
    As a member of the Troika and one of the main guarantors of 
the CPA, the USA should be putting pressure on the negotiating 
parties to ensure that transparency and independent 
verification are included in the new deal. We strongly 
recommend that the U.S. take a more active role in pushing 
publicly and privately for these crucial provisions.
    South Sudan faces a huge struggle in the months and years 
ahead. But with the help of the U.S. and other donors, that 
struggle can lead to peace and prosperity for all citizens. 
Responsible oil management and transparency in the new North-
South oil deal will very much be at the center of this success.
    Thank you again for this opportunity. I look forward to 
answering any questions you have.
    [The prepared statement of Ms. Wilkins follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you so very much and for the work that 
your organization has done so well over the years.
    I would now like to welcome Ambassador Roger Winter and ask 
him to proceed.

    STATEMENT OF THE HONORABLE ROGER WINTER (FORMER SPECIAL 
       REPRESENTATIVE ON SUDAN, U.S. DEPARTMENT OF STATE)

    Mr. Winter. Thank you. What I want to do is to give just a 
brief summary of my analysis and recommendations that are in 
the written testimony. It will be very controversial, and I 
urge you to try to take a look at the entire document.
    I am rather disturbed that what I hear so often these days 
is a comment like we need to make sure that ``both sides'' do 
thus and so. And I think if we look at the record, we will find 
there is no moral equivalence between the two sides here. None 
whatsoever. I think that kind of commentary that has been 
picked up by our media and others is a very damaging thing.
    There is Khartoum and there is Juba. They both have 
problems, but the consequences of their problems are light 
years away from each other. And one, that is Khartoum, has the 
potential for affecting all that happens from here on out, 
whether there is a contentious, bloody relationship between the 
two countries after July 9, or something that approaches 
cooperation. So let me try to dispel a little bit that what I 
think is misguided ``moral equivalence.''
    We know from consistent experience with Khartoum that 
Khartoum's commitments, its formal or informal agreements, are 
not reliable. They regularly use agreements as a tactic to buy 
time or to get people to get off their back; but, in fact, they 
ultimately do what they want to do. It doesn't make any 
difference what the agreement said. And we have seen that over 
and over again, because it is a very rich record of 
prevarication, of lying, and deception. And we see it in so 
many ways. Signing a piece of paper doesn't ever seem to 
actually result in them doing what they said they would do.
    So, in the Comprehensive Peace Agreement, many, many of the 
really key provisions of the CPA were never pursued to 
implementation by Khartoum. That is also true of the decision 
of the Permanent Court of Arbitration regarding the boundaries 
for Abyei. They have been entirely disregarded, and Khartoum 
has obviously, by their current actions, no interest whatsoever 
in going by that court's decision; but rather, they will do 
what they choose to do.
    It is also the case, for example, that the things that 
foster violence right now are things that Khartoum chose not to 
do.
    The issue of demarcation of borders, which is a factor in 
the current bloodshed that is going on, the failure to 
demarcate borders that is required by the CPA, it has over and 
over again been raised as an issue. And nothing--there has 
never been a consequence to penalize Khartoum for the things 
they don't do that they promised they would do.
    Also, I would like to say it is very clear, my second 
point, that Khartoum does not at all hesitate to kill its own 
nationals and destroy their property and livelihoods. That is 
obvious if you have followed what has happened with respect to 
the South and the so-called ``three areas.'' Over and over 
again, we see the kind of bloodletting that we are seeing right 
now in Kadugli and Kauda and in Dilling and other locations. 
This is a pattern that we have seen over and over again: 3 
million dead civilians.
    If you add up what is documented on the South, if you add 
what is from Darfur, from Nuba Mountains, from all of these, 3 
million bodies is not something that we can just write off. And 
almost all of them were civilians; and, frankly, almost all of 
them were children. This is not the moral equivalent of the 
SPLM and the SPLA. The SPLM and the SPLA have huge problems, 
absolutely, but they don't rise to this level. Khartoum is used 
to getting away with murder, in Darfur, in the South, in Abyei, 
and in Southern Kordofan and elsewhere. And I must tell you, 
with the way they are behaving right now, I fear a great 
liquidation of population in Southern Kordofan, in Abyei, and 
potentially in Southern Blue Nile after the separation of the 
South. I think we are seeing the beginning of that right now.
    I think it is terribly important to not--I love the South, 
I spend all of my time working to support the South, but the 
people of Southern Kordofan, the people of Abyei, and the 
people of Southern Blue Nile are the same people, basically; 
they just happen to be on the Northern side of the border 
between North and South and, therefore, will not become part of 
the independent country. What does that mean? That means that 
they are locked in there for the long haul, at least right now, 
and it is not a pretty thing to think about.
    Thirdly, I would say there is no reason to believe that 
what I am talking about right now will change. The track record 
of an unrepentant National Congress Party in power is, I think, 
clear and scary.
    I would like to say, there is no moral equivalency between 
these two parties. And I recommend, and I have never done this 
in my life, okay, I have never recommended something like this 
before, I think the possibility of massive liquidation of 
populations north of South Sudan that are basically the same 
people as in the South, I think they are at risk and I think 
our talking has not paid off and we are almost out of time. I 
suggest that it is time, as radical as this may sound to you, 
it is time to take, I would argue, a military action. I am not 
talking about going to war; I am talking about a military 
action against a military installation of the Khartoum 
government, and do that now as a warning to them that the end 
of the playing around with this peace agreement is over and 
they must improve their behavior toward the people not just of 
Darfur, but most particularly now I am talking about Southern 
Kordofan, Southern Blue Nile, and of Abyei.
    I would like to suggest that this is important because it 
seems--there are at least reports about the potential for using 
what I will call illegal weaponry against the civilians in 
those locations that I just mentioned. So that is one thought.
    The second is that the U.S. take steps to strengthen the 
Sudan People's Liberation Army in meaningful ways and to 
escalate our efforts to prepare them to at least defend their 
new homeland. This is, I would suggest, something that is 
important to deter violence against civilians and the potential 
for war.
    Why? Why am I saying this? I am saying this because the 
post-independence timeframe, because the borders have never 
been defined adequately in the controversial areas, because 
they have never been defined, there are going to be continuing 
issues between the North and the South until they are sorted 
out. I think it is very important to have a capable Southern 
capacity.
    I would say thirdly--and this is on the issue of the 
casualties of civilians and what has happened in the last few 
weeks--it should tell us something about what is immediately in 
the future. Almost all of the substantive humanitarian 
assistance that goes to assist the people in Southern Khartoum 
and in Abyei and in parts of Southern Blue Nile are delivered 
through the South. They are delivered from South Sudan and the 
issue is that starting on the 9th of July, that border is not 
an internal border of a single state, it is going to be a hard 
border between two separate countries. And you can bet your 
boots that Khartoum is not going to allow humanitarian 
assistance into Abyei, into Southern Kordofan and into Southern 
Blue Nile. So all of these people who have been damaged and 
affected by the most recent violence, there needs to be a 
recognition that Khartoum will not allow humanitarian 
assistance in the same way the government in the South does for 
those people who are currently affected.
    Thank you.
    Mr. Smith. Professor Winter, thank thank you very much for 
that very sobering assessment.
    [The prepared statement of Mr. Winter follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Let me ask you--you mentioned illegal weapons--
are you talking about chemical weapons and those reports?
    Mr. Winter. Not that I know anything, but a lot of where 
this comes from is what has appeared over Kadugli and other 
locations that have been being bombed and so forth, was an 
unusual, very large plane that some people suggested was a 
Hercules that was escorted by MiGs, the MiGs that are usually 
attacking and doing other things, and the Antonovs are bombing 
and so forth. What people saw and reported was this large, 
different kind of plane that was being escorted by MiGs, and 
that has triggered some of this speculation is my 
understanding.
    Mr. Smith. If I can ask, obviously to the lead-up to the 
full declaration of independence, every day is a day in which 
all of us are holding our breath. What is your sense as to what 
happens after July 9th, assuming that these terrible incidents 
that we have seen, the bloodletting that has occurred, do abate 
and hopefully there will be an ability to get resources to 
those who are suffering?
    And your point, I think, Ambassador Winter, is very well 
taken. But when the lights go out, so to speak, and the 
international community takes some of its focus off on July 
10th and beyond, what huge risks then portend for South Sudan 
in terms of what Khartoum and Bashir might be hatching?
    Mr. Winter. I would suggest that Bishop Hiiboro may know 
something about this from his own country.
    Let me say this. Take, for example, the Nuba people, people 
of the Nuba Mountains which are an important piece of Southern 
Kordofan. We are talking about an area that in the early 1990s 
was under a fatwa. The population there of Nuba are visually 
determinable pretty much from other aspects of the population. 
The Nuba are Christian, Muslim, and traditional kinds of 
religion. The fatwa applied to all of those. It was in fact, by 
professionals, determined to be genocide.
    Now, it is the Nuba in particular that are being attacked 
now in Southern Kordofan. They have suffered really 
tremendously over time, and it is they where you hear most of 
the difficult stories right now about people who are being 
pulled out of their hovel and shot, or even having that done in 
the presence of people from UNMIS, soldiers and that kind of 
thing.
    Why I am suggesting some of these actions that I am 
suggesting now, you can't just let it happen. Something has to 
happen before independence to try to--you know, try to provide 
some deterrence for that kind of action.
    Mr. Smith. Let me just ask a process question with regards 
to your time.
    Special Envoy Princeton Lyman was at the White House, and I 
know he has to be out of this room by 4:30. I am wondering if 
our distinguished witnesses have flexibility in their time so 
that he can come and present, some questions will be asked of 
him, and then we would bring you back. I hate to do that to 
you, but when the President calls, the Special Envoy had to 
respond to the White House. Would that be okay?
    Mr. Winter. Within limits, yes.
    Mr. Smith. Within limits, okay. Thank you, Mr. Ambassador.
    Mr. Winter. I have another commitment, too.
    Mr. Smith. I am sorry.
    I would then ask Ambassador Princeton Lyman, U.S. Special 
Envoy to Sudan, who has served in that position since March 
31st of this year to come forward. Immediately prior to that, 
he served as U.S. Senior Advisor on North-South negotiations 
where he led the U.S. team focused on supporting ongoing 
negotiations between the parties to the 2005 Comprehensive 
Peace Agreement.
    Ambassador Lyman has held a number of positions in the NGO 
sector and academia, in addition to a multitude of diplomatic 
assignments throughout Africa, spanning a decade. Mr. 
Ambassador, welcome.

 STATEMENT OF THE HONORABLE PRINCETON LYMAN, SPECIAL ENVOY FOR 
                SUDAN, U.S. DEPARTMENT OF STATE

    Ambassador Lyman. Mr. Chairman, Ranking Member Payne, and 
other members of the committee, thank you so much for holding 
this hearing and for the great interest I know you have for 
this situation.
    As you well know, and you know it from the testimony so 
far, we face a very serious situation right now. I would ask 
that my full testimony be put in the record because it has a 
great deal of information on the background to these events 
that I hope will be helpful to the committee. But I want to 
focus in this presentation on where we are.
    We were relatively optimistic after the referendum of 
January 9; but in fact in recent months there has been more 
tension between the parties and we could see that coming in a 
number of ways.
    In Abyei, there was a growing frustration by the 
population. There was a blocking of the migration. There were 
forces introduced contrary to the agreement, forces from both 
sides. And tension was building up there.
    We have been working nonstop on these issues all through 
this period and that includes the more recent events in 
Southern Kordofan. From the time that the Sudanese forces moved 
into Abyei, we have been working around the clock to mobilize 
international opinion in support of the withdrawal of those 
forces. And from the President, from the Secretary of State, 
from others in the administration, we have urged people--you 
know that we don't have direct contact with President Bashir, 
but we urged many, many leaders from around the world who do, 
to call him and to say that they are risking a great deal by 
doing this.
    I came just this morning, I had just this morning a meeting 
with President Obama where we discussed this situation. He is 
deeply concerned. He follows Sudan events daily; and of course 
is very concerned not only about the situation in Abyei, but 
about what has happened in Southern Kordofan.
    The Secretary, as you know, was in Addis Ababa just this 
week in meetings with the parties. And let me say where we are 
and what has happened in response to this crisis.
    On Abyei, we recognized that the situation was growing very 
dangerous at the beginning of May. And I and former President 
of Burundi, Pierre Buyoya, and the Secretary General's 
Representative, Haile Menkerios, immediately flew to Juba and 
we worked with both parties to resurrect an agreement for the 
withdrawal of forces from both sides that both had signed but 
had not been implemented.
    We were moving that process forward when a second incident 
of attacks from the SPLA on a Joint Integrated Unit triggered 
what we feel is an extraordinarily disproportionate response by 
the government to move its forces into Abyei.
    Our efforts on Abyei have been to get an agreement as 
quickly as possible on the withdrawal of forces from Abyei. To 
do that, we needed to strengthen the U.N. force in Abyei, which 
had been ineffective in both monitoring fully the introduction 
of forces that violated the agreement and in preventing the 
events that took place when the Sudanese forces came into the 
territory. To do that, we have asked Ethiopia to bring their 
troops in to the U.N. force because they are willing to enforce 
the mandate that that U.N. operation has.
    There has been long and sometimes painstaking negotiations 
on that. But I can tell you, particularly thanks to the 
Secretary's intervention earlier this week, we are fairly close 
to an agreement that would have the Sudanese forces withdraw 
from Abyei, reinforcement of the U.N. voice, and a new 
administration in Abyei. It is not sealed yet, but it is close 
and we are hoping it will be signed.
    Now, on Southern Kordofan, you have heard a great deal of 
testimony on that, and you know we face an extraordinarily 
serious problem there. The fighting has broken out. There are 
reports of very serious human rights abuses, which you have 
heard about, and there is a serious humanitarian situation 
where anywhere from 40,000 to 60,000 people are displaced as a 
result of the fighting.
    I have been to Southern Kordofan several times in recent 
months in the lead-up to the election there, and have been in 
regular contact by phone with Abdul Aziz, who is the former 
deputy governor and the leader of the SPLM in South Kordofan, 
trying to avert the kind of situation that broke out.
    Under the auspices of the African Union High Level Panel, 
negotiations to resolve this immediate crisis have been going 
on also in Ethiopia, and an agreement is being put together but 
yet it is not as close as the one on Abyei.
    A delegation just flew by helicopter into Southern 
Kordofan, in spite of the fighting, a U.N. helicopter carrying 
members of the SPLM and a member of my staff and the AU panel 
to meet with Abdul Aziz and to work further on the agreement; 
and, in particular, to get an agreement that covers several 
things.
    First and foremost, we want a cessation of hostilities and 
full access for humanitarian assistance to those who have been 
displaced.
    Second, and this has been worked on, an agreement that the 
political grievances which are at the source of the conflict 
there get fully aired and negotiated between the NCP and the 
SPLM in an organized way in the future.
    And, third, an issue which in part touched off this 
conflict in Southern Kordofan, a committee to look at how you 
eventually integrate the SPLA forces inside Southern Kordofan, 
which as Roger Winter noted, and others, are people who come 
from Southern Kordofan. They are not Southerners, and they are 
looking for their place in that state.
    Abdul Aziz, as a result of this mission, has agreed to a 
30-day cease-fire on certain conditions, and now we and others 
have to work to see if we can get that done.
    These are the efforts we have been making throughout the 
administration over the last several weeks to arrest what has 
been a deterioration in the whole process of the Comprehensive 
Peace Agreement. And there are outstanding issues that need to 
be resolved by July 9.
    First, of course, is Abyei, the future of Abyei, a most 
contentious issue, and I know members are very familiar with 
that.
    There is the second question of how the proceeds of oil 
from the South will be apportioned during a transition period 
and the conditions under which that would take place. There are 
issues of citizenship that have to be resolved, issues of 
disputed border areas, and a few others.
    There have been lots of discussions on these issues, a lot 
of technical work has been done; but what we haven't gotten to 
are the political decisions that will resolve many of these 
issues. Those negotiations were supposed to start this week, 
but of course all of us have been diverted to dealing with the 
crises in Abyei and Southern Kordofan.
    Let me take a moment also to deal with Darfur, because as 
consumed as we are with these current crises and the CPA in 
general, we are also deeply engaged on the problems of Darfur.
    We decided in the administration to put a very intensive 
diplomatic effort in the peace talks going on in Doha in the 
country of Qatar. Those talks have been going on for 2\1/2\ 
years without results. My colleague, Dane Smith, Ambassador 
Dane Smith, who works full-time on Darfur, practically camped 
out in Doha for several weeks with his staff to try to improve 
that agreement. We worked very hard to get a second armed 
movement, the JEM, into those talks with the Government of 
Sudan, and they did engage in talks. The result of Doha is a 
draft agreement which is better than the one that came out of 
Abuja, but it is not signed yet by the government or any of the 
armed movements.
    The question is where we go next from there. We have to do 
two things. We have to try to work more with the armed 
movements on getting them into the peace process. It is not 
that they don't have grievances, but many of them have said 
what they want to negotiate is the whole constitutional 
restructuring of Sudan. They don't want to start with Darfur, 
and that makes for a very complicated process when you are 
talking about Darfur.
    On the government side, we have constantly worked on 
questions of access and respect for human rights. There is a 
desire, and a legitimate one, for a peace process that engages 
many more of the people inside Darfur. But to do that, you have 
to have conditions in which you don't have a state of 
emergency, in which people are free to talk, not worry about 
harassment afterwards. You need security, et cetera.
    So what we have said to the U.N. and the African Union that 
want to lead this process, ``Not until these conditions are 
present, you can't have a process that would be legitimate or 
credible.'' So we continue to work on all of these aspects of 
the Darfur problem.
    It is complicated, also, I might just say in passing, by 
what is happening in Libya. I think you are aware that Libya 
had been assisting at least one of movements--the head of that 
movement, JEM, is still in Tripoli--and what happens in Libya 
could have an impact on the situation in Darfur, something we 
are watching very closely.
    Let me stop there, Mr. Chairman. There is much, much more 
to go into. But I just wanted to give you a quick view of the 
efforts that we have been making for the last several weeks 
throughout the administration, with the President, the 
Secretary, the National Security Council, myself and others, 
our Embassy in Khartoum, our consulate in Juba, to get at these 
issues. Thank you very much.
    Mr. Smith. Mr. Ambassador, thank you very much.
    [The prepared statement of Ambassador Lyman follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Let me just ask you, what do you think might be 
the next flash point after Southern Kordofan, Abyei, and the 
Nuba Mountains? Have we identified something that is building, 
some pressure that is building?
    Ambassador Lyman. I think the other flash point is the five 
disputed areas of the border, some more significant than 
others. One on the Darfur-Abyei side. The two sides have not 
yet agreed on how to resolve those border disputes.
    There has been a good deal of technical analysis by the 
British and the African Union on those five areas which could 
be the basis for a settlement. But again, we don't have the 
political leaders having come to an agreement. So there is a 
potential flash point if either side tries to occupy those 
areas and assert a military control.
    Mr. Smith. With regards to the U.N. peacekeepers, both you 
and Ambassador Winter, Ambassador Winter was very strong on how 
while the U.N. humanitarian efforts have been extraordinarily 
helpful, the other efforts by the U.N. peacekeepers fall far 
short, particularly with regard, I would suggest, to their 
rules of engagement, which you might want to speak to.
    My understanding is that after July 9, some 7,000 
additional U.N. peacekeepers are envisioned. This is a time 
when financial restraint cannot be held up--we would do more if 
only we had it--this could mean the difference between an all-
out new genocide and fighting a war, or not. It seems to me 
that if there is not a sufficiently robust deployment, there 
could be serious, serious problems. What are your thoughts on 
that?
    Ambassador Lyman. There is work, very advanced, going on 
with the Security Council and with the parties to set up by 
July 9 a new U.N. mission in South Sudan. It would be a mission 
devoted to building state capacity, conflict prevention, 
protection in emergency situations of civilians, a very broad 
mandate that I think will be approved soon in the Security 
Council. I don't have in front of me the exact number of troops 
involved; I think it is 7,000. That would be just strictly in 
the South.
    Now, what the Government of Sudan and Khartoum have said to 
the U.N., we don't want the U.N. in the North after July 9. But 
there are several areas in which this is now coming back to 
discussion. One, of course, is the peacekeeping force that we 
are talking about in Abyei which right now is above the 1956 
line, and both sides recognize that they must continue a 
peacekeeping operation in Abyei.
    Then there is the question of a role for a third party in 
assisting in border monitoring after July 9, and in these two 
very important areas of Southern Kordofan and Blue Nile. The 
discussions so far on those, the borders and the two areas, 
have not reached conclusion, whether a third party should be 
the U.N., whether it should be AU, or whether it should be 
someone else. And that will shape the response of the U.N. to 
what is needed north of the line between the two countries. So 
it is much more advanced on the force going and the broad 
civilian mission going into the South than it is in the North.
    Mr. Smith. Let me just ask you, Bishop Hiiboro made a very 
important appeal that the church and civil society be included, 
and he noted that the latest establishment of the structures--
and this is post-referendum--and the absence of church, civil 
society and other actors' participation in them could lead to a 
lack of transparency and inclusiveness. What assurances can you 
give that the U.S. is pushing very hard that the church and 
civil society are truly partners and are not left out, 
particularly in the provision of humanitarian assistance?
    Ambassador Lyman. It is a very important objective. I have 
been disappointed, as have others, that the negotiating process 
itself has not been more open to women, to civil society, to 
religious groups. It has been two parties, really, negotiating 
between themselves. There has been some effort to reach out to 
civil society, but it has not been satisfactory.
    The work on a transitional constitution has largely in the 
South been kind of an in-house operation. It is among the 
politicians more than it is civil society. Right now the 
religious institutions play a major role in the delivery of 
services. Without them, many people wouldn't be receiving 
health care and other things. We have urged the Government of 
South Sudan to--as it develops its permanent constitution--to 
make it a very broad process of consultation and participation 
throughout the country. We think that it is extremely 
important. They have committed themselves to that in principle, 
and we will be working with them through NDI, IRI, and other 
organizations that we have, to make sure that that happens. 
Because it hasn't happened sufficiently now, and that is doubly 
important, Mr. Chairman, because in the South there is a lot of 
considerable unrest, some of it sparked by militias, but some 
of it inherent in the communities themselves. And you can't get 
at that simply by government or military means, you have to get 
the churches and you have to get civil society involved.
    Mr. Smith. One last question. I have many questions, but 
because of your time constraints, I will just ask one more.
    Dana Wilkins has testified that the U.S. should be more 
involved with the oil transparency issue, and she makes a very 
strong appeal that we do so, and notes that we are not. Since 
wars are fought over oil, land, demarcation of boundaries, 
obviously these are inextricably linked, are we going to be 
more involved in that?
    Ambassador Lyman. We have been heavily engaged in 
discussions with the Government of South Sudan about this. We 
recently had a Troika mission--that is the U.S., U.K. and 
Norway--headed by our USAID Administrator, that raised this 
issue very seriously with the South. The IMF has been there to 
talk about this. We are now with the Norwegians, putting 10 or 
12 people into the Oil Ministry of South Sudan to help develop 
their capacity, and we are working with their finance 
department to ensure that there is transparency in this area. 
The Norwegians are also being very helpful in this regard.
    It is an extremely important issue, as you have heard from 
the other witnesses, and we have said over and over again that 
for the Government of South Sudan, this is going to be one of 
the major tests of their ability as a new state to manage their 
resources well and to earn the support and credibility of the 
international community.
    Mr. Smith. Ambassador Winter it would appear, if we were to 
sum up his view on this, is very much concerned about the 
duplicity on the part of Bashir, which we have all seen, but he 
has lived it. He saw how we would think something was going to 
happen and it wouldn't. It reminds of what Slobodan Milosevic 
always did in Serbia. He would sign a peace agreement or a 
cease-fire, and 2 days later he would break it. We would have 
that false sense of hope over and over again.
    Is there something dramatic that the U.S. and our partners 
need to be doing to ensure that this man who has committed 
genocide is not perhaps looking to develop another crisis where 
he will use force and use it with impunity?
    Ambassador Lyman. What we have to do in a case like this, 
Mr. Chairman, at least to the best of my ability and others, is 
to get the people in Khartoum to recognize that it is in their 
own interests to have a successful peace process with the 
South; not preaching to them about being good guys, but telling 
them that there are big consequences to their not doing so.
    Mr. Smith. And what are those consequences?
    Ambassador Lyman. Well, the North, after July 9, will lose 
about 60 percent of their revenue. They will be shouldering a 
$38 billion debt. They will have very serious economic 
problems. They already are experiencing some of those. The only 
way to resolve these or deal with them is to come back into the 
good graces of the international community. That means dealing 
effectively and properly with the CPA and with Darfur.
    It is not just our condition, it is the condition of all of 
our Western allies and others who are major creditors to Sudan. 
They risk all of that if, for whatever reasons, they take a 
military solution or otherwise violate the CPA. And we have 
made that crystal clear. They have lots to gain if they do it 
right. They have lots to lose for the people of Sudan if they 
don't.
    I think, to be perfectly honest, you have to look at what 
they see as their own interest. And what we have said to them 
is, being isolated in the world, facing all of those economic 
consequences, having an unfriendly relationship with the South, 
all of those things are bad for Sudan. It is to see it in their 
interest not because they are good guys or bad guys, but that 
this is the only way that they can produce a viable, stable 
society in Sudan.
    Mr. Smith. Thank you.
    Mr. Payne.
    Mr. Payne. Thank you very much.
    Mr. Ambassador, I commend you for your many years of 
distinguished service. I do feel, though, that we got off to a 
late start with the Obama administration and the Special Envoy. 
I think that the focus might have been misdirected and I think, 
unfortunately, time was lost and we find that you have an 
impossible--almost impossible situation you have inherited.
    Having said that, though, it does seem that the Bashir 
regime would recognize that time is running out, that they 
really have serious problems after July 9th. But the fact that 
they continue to behave the way that they do, it is almost 
incomprehensible about the thought process, their tendency to 
overreact in Darfur. It was some soldiers or civilians that 
went into a barrack and the next thing you know, thousands of 
villages are bombed in retaliation. I mean, you talk about 
moral equivalency, you couldn't even use the word.
    The alleged attack by SPLM on a U.N. convoy, once we 
finally got down to the common denominator, it was perhaps a 
gunshot really, not intentionally or did much damage or 
whatever, but then the overwhelming response by once again the 
Government of Sudan, using their overwhelming power, no kind of 
moral equivalency. And so I just wonder whether this regime in 
Khartoum can ever be reformed. It just makes no sense.
    And then the arrogance of President Bashir that he is going 
to go to China, and Amnesty International has requested that 
China arrest him since they are a permanent member of the 
Security Council and not a member of the Rome Statute. Or at 
some point if he is an indicted criminal--and it is a long way 
from Sudan to China or other places--that he does. I think at 
some point in time, we need to empower some kind of 
international special forces to intercede and to arrest him or 
to have some serious kind of intervention to bring him to 
justice, because this is never going to work with the manner of 
impunity that he goes around the world and does what he wants 
to do.
    However, let me just ask, the situation in Abyei, is there 
the possibility, or even in South Kordofan, the SPLM want to 
have a transition from that into the police or military or 
something, and others being deployed out of military. There has 
to be some time to do this.
    In your opinion, do you think that the plan that has been 
laid out before, what they laid out as a plan, do you think 
that there is time for that to work; where, like I said, the 
SPLM, because they are not going anywhere, could demobilized, 
but there has to be someone in between to try to be there to 
enable it to happen? What are the prospects of that happening?
    Ambassador Lyman. Thank you very much, Congressman. And 
again, let me thank you for all that you do on behalf of 
Africa.
    Let me distinguish three aspects of that. In Abyei, the 
understanding in the CPA, which we need to go back to, is that 
there should be no militarized forces in Abyei, only a U.N. 
peacekeeping force and local police. That was the objective 
that we were working on so desperately at the beginning of May, 
called the Kadugli agreement, but it fell apart in the matters 
that we discussed. But that is the essense of the agreements 
being worked on. You have a local administration and you have a 
local police force, but security is with the U.N. peacekeeping 
force; and, as I said, an enhanced one with the support of 
Ethiopia.
    When it comes to South Sudan, I think South Sudan faces an 
extraordinarily difficult set of circumstances with regard to 
the SPLA. Part of their strategy of achieving unity, of coming 
to terms with various militia that have fought in the past 
against the SPLM in the South, has been to bring them in, and 
their soldiers, into the government and into the Army. The 
result is a force that is really much too large. And as they 
face some of these other militias, those deals might continue 
to be necessary, but you get the force even larger.
    On the other hand, many of these people are not trained for 
civilian life. They don't have the skills. There is a high 
illiteracy rate. So what the chief of staff, General Holt, has 
said and what we have agreed and what I think the U.N. has 
agreed, you don't start immediately a demobilization program. 
What you do is take several years to build this force more into 
a professional lineup, provide a lot of skills training for 
people, doing things for the society, whether it is agriculture 
or construction or other things, and then go into a 
demobilization process where you are putting skilled people 
back into society.
    If you do it too soon, if you send people back with no 
skills, they are easily recruited by militia. So it has got to 
be not a quick demobilization, but a process where you get 
bigger first and then down. I think we all now understand this 
is how it is going to have to be.
    Inside Southern Kordofan and Blue Nile, you have a 
situation where you have both in those states and in the South 
but from those states, tens of thousands of soldiers who fought 
in the civil war. Eventually they should be either integrated 
into a single army in the North or demobilized. But the point 
is that they are not prepared to do that unless they know that 
the political rights for which they fought are going to be 
protected. That has been the issue behind the current conflict 
in Southern Kordofan.
    So what we are hoping will come out of these negotiations 
is an agreement that these political grievances and concerns 
have to be addressed, and that any plans for integrating or 
demobilizing those forces have to be related to an assurance 
that the political issues are being resolved.
    It is a touchy kind of issue for both sides to work on, but 
that is what is going to be necessary before you can get to a 
demobilization in those areas. I hope this is okay, 
Congressman.
    Mr. Payne. Thank you very much. My time has expired. But I 
would ask very quickly, if the chairman would indulge me, about 
the tanks, the tanks that the South Sudanese have paid for that 
are on tracks still in Kenya.
    Is there any possibility that those assets that belong to 
the Government of South Sudan can be released by the U.S.?
    Ambassador Lyman. I have to ask you if we can deal with 
that in classified session. I am happy to come up and do that.
    Mr. Payne. Okay, thank you.
    Mr. Smith. Ms. Buerkle.
    Ms. Buerkle. Thank you, Mr. Chairman.
    Thank you, Ambassador, for being here today. My first 
question has to do with North Sudan and the fact that currently 
their behavior--they are violating the Comprehensive Peace 
Agreement protocol. Now, in your testimony you talked to us 
about the fact that written agreements are being put in place 
for Abyei and also for Kordofan. We heard from Mr. Winters that 
apparently the North Sudan doesn't adhere to these agreements, 
that there is concern that even if you have the best agreement 
on paper, if they don't pay attention to it and they don't 
adhere to it, it doesn't do any good.
    My question to you is: Is there a contingency plan? Is 
there an understanding by the administration that we are going 
through this step here, but more than likely it may not work?
    Ambassador Lyman. Thank you. Thank you very much.
    You know, to go back to now the very familiar phrase of 
President Reagan, ``trust but verify,'' in the Abyei agreement, 
you have to have a U.N. force capable and willing of enforcing 
the mandate. If you don't have that, either side could break 
it, and the North included, of course. What we have been 
working at is to make sure that we have a U.N. force that is 
not only mandated but willing to go to every part of Abyei.
    I don't want to get into the argument of moral equivalency 
because I understand that. But the fact is in Abyei, both sides 
blocked the U.N. from fully inspecting the amount of forces 
that they had brought into the area. It only works if the U.N. 
not only has the mandate but is willing to enforce it. That has 
been at the heart of this discussion, to bring in a better 
force into Abyei.
    Now, when it comes to Southern Kordofan, what I think has 
been demonstrated at terrible cost is that the Government of 
Sudan can't come in and militarily just disarm those SPLA 
soldiers. That you get into a terrible fight at great human 
cost, but it is not a walk-over. And hopefully out of that 
comes--again this is mutual interest, not anything else; the 
only way to deal with that problem is to negotiate with parties 
that have some wherewithal.
    I am hoping that in the discussions that are coming out now 
on Southern Kordofan, there is a recognition you can't do it 
militarily. You might want to, you might have people who say we 
ought to, but you can't. And if you can't, then you need to 
find another way. So that is what I think is going to happen in 
Southern Kordofan, or at least I hope so; that people realize 
that the military solution is not going to work.
    Ms. Buerkle. Just as a follow-up couple of questions, and I 
would like your opinion as to whether or not you think what is 
going on in Abyei is really tantamount to ethnic cleansing.
    Ambassador Lyman. Well, what has happened in Abyei is that 
when the Sudanese forces moved in, the population, remembering 
what happened in 2008, left. And understandably so. And what we 
have said is, until those people are allowed to go back and as 
soon as possible, you have what could be called ethnic 
cleansing because you can't just remove people from where they 
are and then not allow them to come back.
    But for the government to say they are free to come back 
any time, of course they are not going to come back while it is 
occupied by Sudanese armed forces.
    So the reason, one of the reasons that we have pushed so 
hard to get an agreement on withdrawal as fast as possible is 
so over now 100,000 people can come back to their homes, and we 
get away from any thought that you could change the ethnic 
composition of Abyei through military means. And that is 
clearly part of the objective. It has to be.
    Ms. Buerkle. Lastly, what leverage do you think the United 
States has to contain the events you are talking about prior to 
July 9?
    Ambassador Lyman. I smile because we debate that all of the 
time in the administration.
    Look, I think there are a number of things that give us an 
important role. One is that Sudan--and it is not just us, but 
we are a major player--Sudan, and by that I mean North Sudan, 
cannot come out of its economic isolation without the agreement 
of the United States. They can't get the debt relief, they 
can't get to the World Bank, they can't get to the IMF, they 
can't get off the list of State Sponsors of Terrorism. The 
relationship between Sudan and the United States is critical to 
all of that. It is a point that we make, and sometimes they 
recognize it and sometimes they are angry about it, but it is a 
reality.
    The second thing is in the negotiations that are overseen 
overall by the African Union High Level Panel, it is important 
that the United States be participating and be able to talk to 
both sides about the substance of those agreements, and we have 
been able to play a very significant role in that regard.
    It is that, and it is working very closely with a number of 
our allies so that we speak with one voice. I mentioned that I 
traveled recently with my colleagues from Britain and Norway, 
the Troika, but we also traveled with the European Union 
Special Envoy, as well, and we try to mobilize as much united 
as we can.
    And the Africans. Look, Prime Minister Meles has played an 
extraordinarily important role. And we work closely with him so 
that we multiply, if you will, the leverage by bringing more 
parties to the table.
    Ms. Buerkle. Thank you very much.
    Mr. Smith. Ms. Bass.
    Ms. Bass. Thank you. A couple of questions. You mentioned 
people returning, that people should be able to go back. But 
what would they actually be returning to? Are there villages 
intact, was the housing destroyed?
    Ambassador Lyman. What happened in Abyei and we are seeing 
in Southern Kordofan is a great deal of looting and destruction 
of property. I saw one estimate that something like 20 percent 
of homes or building in Abyei towns were destroyed. I don't 
have verification on it, but it wouldn't surprise me. A 
tremendous amount of looting. So when people go back home, 
obviously there is going to have to be a lot of help in 
rebuilding. Now, we haven't worked out the details and the 
financing of that. But we have a coalition of humanitarian 
agencies that are working with them now, with displaced people 
that will go back into Abyei and work with them on 
reconstruction. But you put your finger on one of the terribly 
devastating costs of this conflict. Many have lost everything 
and they have to have their lives reconstituted when they go 
home. I think we are going to find that in Southern Kordofan as 
well.
    Ms. Bass. And one of the previous witnesses had mentioned 
that he believes that if things don't go well after the 9th, 
that we really could be looking at a virtual genocide. And I 
wanted to know your thoughts on that. And I have a question 
following that that was asked actually by one of my 
constituents who e-mailed it to me: What is the administration 
doing to stop the atrocity in Khartoum and how will the 
administration work to stop the violence toward civilians? 
Distinguishing that from what could potentially be a genocide.
    Ambassador Lyman. It depends a lot on why or where such 
would happen. Obviously, as Roger Winter pointed out, that 
danger in many people's minds could happen in Southern Kordofan 
or Blue Nile if there isn't the kind of recognition of rights, 
et cetera, that I talked about earlier. In the South, it is a 
different story. You are not talking about, I don't think, 
genocide as much as you are talking about ethnic differences, 
cattle rustling, militias, et cetera, a lot of fighting and a 
lot of dislocation. But I don't think that borders on genocide.
    So I am not clear that that is immediately the problem as 
it is in this continued level--you know, many people say if we 
don't get these things settled, the two sides will go back to 
war. What I fear, because I don't think either side really 
wants to go back to full-scale war, is that you get a 
relationship that is not even a cold peace. It is a very 
unfriendly relationship between two countries that try and 
spoil each other. ``I will help Darfurians because you are 
helping the rebels and so and so,'' and each side is trying to 
upset the other with great loss of life for people caught in 
the middle. I worry about that.
    Now, it could get worse than that. But that disrupts the 
lives of everybody because a very large portion of the people 
in the North and South live very close to the border. Their 
lives depend on an open border. They trade. They migrate with 
their cattle up and down, et cetera. If you get into what I 
call not even a cold peace but an unfriendly hostile 
relationship, those people are going to suffer a great deal on 
both sides. That in my mind is the bigger threat.
    I hope a bigger war is not on the horizon, but I see that 
as a pattern that would be very destructive if they don't come 
to the kind of understanding between the two countries, as I 
often say to them, you don't have to kiss on the cheeks but you 
have got to shake hands, you have got to recognize that your 
lives are intertwined. You don't have to like each other, you 
do have to recognize that you have mutual relationships that 
you have got to develop.
    Mr. Smith. Chairman Royce.
    Mr. Royce. Thank you, Mr. Chairman. We have a leaked United 
Nations report that says that the Sudanese Armed Forces' 
invasion of Abyei was, in the words of the U.N., tantamount to 
ethnic cleansing. So I was going to ask you what is the 
administration's response to that report and what consequences 
are being considered? And then the other aspect of this is the 
new report, the June 1st attack by the LRA. It has been 25 
years now that we have dealt with Joseph Kony, and he has been 
abducting children and brutalizing them in such a horrific way 
that he turns them into killing machines. But the last report 
cites that escaped child soldiers have reported Sudanese Armed 
Forces trucks during their time in activity delivering 
munitions, delivering weaponry, also bringing uniforms to LRA 
commanders. This is pretty problematic, especially when you 
consider that the latest attack on June the 1st had to repeat 
the modus operandi that Kony often uses where he gathered a lot 
of children, had some of the people massacred in front of their 
very eyes and had some of them identify and kill their parents 
and then have them boiled, dismembered them and boiled them in 
water. The fact that we have not been able to get across to the 
Khartoum government that this kind of support, this kind of 
using the LRA to destabilize South Sudan--and this was on the 
South Sudan-Ugandan border where this occurred--the fact that 
we haven't been able to drive that home means that just 
explaining this to them may not be working. So what is the 
administration prepared to do in light of this in order to get 
some results? And we have given the authorization, myself and 
Congressman McGovern on that legislation, you have got the 
green light on taking Kony out. What is being done to take Kony 
out?
    Ambassador Lyman. Thank you, Congressman. I couldn't agree 
more about the horrific character of the LRA. There was a 
meeting just in Addis while I was there of the countries of the 
region and the United States and others on how to implement 
exactly what you are talking about, to eliminate the LRA. We 
have a task force in Washington following up on the 
legislation. Very good legislation has come out of the Congress 
actually. Actually a member of my staff is taking over the lead 
of that in July. So I think the plans are being formulated by a 
coalition of countries in that area along those borders to go 
after the remnants of the LRA. We have made it very clear to 
Khartoum that any support of the LRA is a threat to any kind of 
normal relations.
    I haven't seen the report that you mentioned. I would like 
to get it, please, because I do raise this issue often. But we 
do have--and I would ask my colleagues in the Department who 
work on this to give you an up to date on what happened in 
Addis and the plans that are underway.
    Mr. Royce. Very good. And I am going to follow up with 
another point, and that is the new mission that the U.N. is 
working on regionally. My concern is what is being done to give 
them the wherewithal to protect civilians, to make certain that 
they have as part of their mandate a definition that gives them 
the ability adequately in situations where we have already seen 
happening in Darfur happens, again we make sure that there is a 
credible deterrence there.
    Ambassador Lyman. The problem for U.N. peacekeeping forces 
is, of course, how much they get out in front and start 
engaging in conflict with one party or another. It is a 
longstanding issue.
    Mr. Royce. Get out in front is your way of looking at it. I 
was in Darfur. I have seen--it is not a matter of getting out 
in front. It is a question of when civilians are overrun and 
slaughtered and run to the U.N.--or to take the situation, for 
example, in the former Yugoslavia.
    Ambassador Lyman. I take your point completely because it 
is important that the U.N. be proactive in those situations and 
it goes to the question I was asked earlier about the South. We 
want a capability in the new U.N. mission there to move very 
quickly in situations like that, in fact to have a good sense 
of where that kind of problem would break out. UNAMID in 
Darfur, we have gotten the U.N. forces to be much more 
proactive in asserting its rights to move into areas and get to 
them. And those cases that you described where they haven't 
been doing so have been a source was not only great 
consternation on our part but very frank discussions with the 
U.N. So I take your point.
    Mr. Royce. One last point if I could get this in. The Chad-
Cameroon pipeline project. I went out there and took a look at 
that. And we put a lot of pressure on that government to try to 
make sure that that money went not to line politician's 
pockets, right, but for roads and for schools. The question 
here is going to be in South Sudan what you will be able to do, 
as difficult a challenge as this is going to prove to be, to 
make sure that our Government is supporting the ability to put 
in place the transparency necessary, because otherwise this is 
going to have a sad ending. Whereas if we get out in front of 
this and really leverage what influence we have for full 
transparency in terms of the oil revenue, I think it could have 
a very beneficial outcome in building society there and maybe 
teach a lesson to the North as well. So I just ask you on that 
front.
    Ambassador Lyman. No, Congressman--and I mentioned this 
earlier--I don't think I have had a conversation with officials 
in the South that this issue has not been raised. But more 
specifically, we and the Norwegians are putting 10 people into 
the Ministry of Petroleum to help them develop the right 
systems. We are working with the Ministry of Finance to get 
transparency there. Our friends from Britain and Norway have 
joined us to say this is going to be a critical factor in how 
the world comes to support the government of the South Sudan. 
So it is a big issue. And we have emphasized it a great deal.
    Mr. Royce. Ambassador, I appreciate your good work in the 
past and working with you in the past, and thank you very much. 
I yield back.
    Ambassador Lyman. Mr. Chairman, I have been monopolizing 
this a little bit. We have Raja here and she knows a great deal 
about the plans of USAID for South Sudan and for some of the 
humanitarian activities. So I hope if you are interested in 
those things----
    Mr. Smith. We are interested. And, in fact, we would like 
to invite her back for an additional hearing. Let me just ask a 
couple of questions if I could very quickly and then Mr. 
Payne--as a matter fact, I will ask the questions, Mr. Payne 
will then ask you because I know you have to leave immediately.
    Ambassador Winter made a very, very strong statement in his 
written testimony. He talks about how in Abyei and elsewhere 
obviously, Khartoum attacks and expects only a neutered 
international reaction. And he said something that I would 
appreciate--because past is often prologue, and you had to, 
coming on line as Special Envoy, deal with whatever good or ill 
had been done by previous Special Envoys--and I would 
appreciate knowing your reaction to the statement by Ambassador 
Winter. ``I believe''--this is him speaking--``that more than 2 
years of the Obama administration's approach to Sudan made 
matters worse, emboldening Khartoum and setting the stage for 
Abyei's and South Kordofan's current horrors. Perhaps the 
eccentricities of General Gration's approach to being a Special 
Envoy for Sudan are related to the administration's commitment 
to a reach out to the Arab and Islamic world.'' And he also 
points out his greatest issue was General Gration's highly 
biased approach to Abyei. And I am not sure if we are reaping a 
bitter fruit from that or if he has that wrong, but I 
appreciate your reaction to that.
    And secondly, Dr. Eibner in his testimony reminded us that 
President Salva Kiir declared in 2006 and addressed the 
Parliament that the government remains deeply committed to the 
retrieval of Southern Sudanese women and children abducted and 
enslaved in Northern Sudan.
    Back in 1996, I chaired a hearing right here, Slavery in 
Mauritania and Sudan, and Secretary William Twaddell, Deputy 
Assistant Secretary, you remember him, from African Affairs, 
said, and I quote, ``The Government of Sudan has denied that 
slavery exists and refused to investigate such reports or to 
cooperate with others seeking to do so.'' He did point out that 
the State Department's Country Reports on Human Rights 
Practices included a section concerning the persistence of 
slavery and the alarming increase in reports of the seizing of 
civilian captives, particularly in the war zones.
    An unfinished bit of huge business and I am wondering--
obviously you are dealing with a whole lot of highly important 
issues--but are we pushing for a full accountability and 
hopefully repatriation of those slaves?
    Ambassador Lyman. On your first question, look, I think 
that--and I worked with General Gration for several months 
before he was nominated for Kenya and we worked very closely 
together. And quite frankly, he worked his heart out and his 
soul for peace in Sudan. People may have quarreled with his 
style or things, but I found him just overwhelmingly dedicated 
to the peace process.
    Now, if you look at the record, getting up to and through 
the referendum, when I started in August working with him, 
people said we couldn't possibly have the referendum on January 
9th and if we had it, it would be a disaster. We did--and I 
don't want to say we get all the credit because we don't, but 
we certainly did an awful lot to make that happen. And it is as 
much General Gration as myself and others who worked on that to 
make sure that the Referendum Commission was stood up, 
supported, capable and that we weighed in politically heavily 
to make it happen.
    We worked hard on the Darfur crisis. We tried very hard to 
get an agreement on the referendum. And we just ran into an 
impossible situation where each side was not prepared to accept 
a voting situation in which the other side would have a clear 
advantage. The Ngok Dinka did not feel the Misseriya should 
have the right to vote and the North argued that the Misseriya 
not only had the right to vote but to vote in very large 
numbers. And 9 days of day-and-night work led us to the 
conclusion--and not only us, but the two parties--this isn't 
going anywhere, maybe we need a political solution. And we have 
been working on that ever since.
    So I think quite frankly that a lot of work was done over 
those 2 years. Of course I came on last August, but I found 
people very dedicated, very committed, working literally night 
and day on behalf of peace.
    When it comes to the slavery issue, this is a very sore 
point--a very sore point. It is a bitter, bitter memory for 
many people. I don't know of plans for full accountability, I 
don't. And I can look into that. But I know for many people, 
this is a bitter, bitter part of the history that they carry 
with them. And sometimes when you are dealing in the 
negotiations, that bitterness jumps up and you realize 
sometimes how deep these feelings go.
    So I take what you are saying very seriously and I will 
look into whether there are any plans on it.
    Mr. Payne. Very quickly. I think two things I want to 
mention quickly. I believe that the Government of South Sudan 
would want to see a transparent and a well working oil system. 
I think they need the help. I think in Chad there might have 
been resistance and needed to be convinced this is what you 
have do and if you don't do it, we are not going to get the 
money. I think in South Sudan, that is not the problem. The 
problem is going to be the capacity to manage it properly. And 
I am glad to hear that the Norwegians and the U.S. have 10 
people there.
    Secondly--and I do know that I agree that General Gration 
was a very hard worker. I just think that we tried to get 
hearings. We were able to get him to come before the committee 
I chaired for 2 years one time. We felt that if there could be 
more discussion we might have been able to get our points 
across, our ideas, and we could have worked together, but he 
would not come before the House committee. He did go over to 
the Senate on some occasions.
    Just one line of questioning. I don't know whether it is 
classified or not, but we have reports that over a dozen trucks 
filled with chemicals are heading for Kordofan. Chemical 
weapons are a violation of world human rights and things 
dealing with war, and so forth and so on, and I would hope that 
there could be some verification. It is even alleged that Mr. 
Saleh Gasch, who is a leader in the Government of Sudan, set up 
a company called G-A-I-D, GAID, for the purchase of chemical 
weapons.
    Now, this is alleged. However, I would hope that we would 
really take a serious look into whether chemical weapons are 
being transported to Kordofan. And if so, I think that this 
raises to a new level and that there will have to be some kind 
of an action with--we just can't allow this to occur.
    Ambassador Lyman. No, Congressman. I just heard about this 
today before I came here and will look into it. I don't have 
any information on it or evidence one way or another. But I saw 
the reports as I was coming here and I will look into it, and I 
will get back to you with whatever we have.
    Mr. Smith. Thank you very much. We tried to stay within 
your time limit. And I would say to Ms. Jandhyala, thank you 
for being here. Without objection, your full statement will be 
a part of the record. And we would like to invite you back for 
a specific hearing on Sudan on just humanitarian issues if you 
would be amenable to that. Thank you so much.
    [The prepared statement of Ms. Jandhyala follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ambassador Lyman. She is worth it.
    Mr. Smith. I know. I would like to now welcome----
    Ambassador Lyman. And thank you for all the interest. I 
really appreciate it.
    Mr. Smith. I would like to now welcome our first, second, 
panel back to the witness table. And I would also ask that Ms. 
Buerkle, if she could assume the chair for a few moments.
    Ms. Buerkle [presiding]. We are going to get started again 
with our first panel. Thank you and we apologize for the length 
of your wait here. I am going to begin the line of questioning 
and then will turn it over to Mr. Payne.
    Bishop Hiiboro, I would like to start with you if I could. 
In your opening comments, you talked to us about the United 
States being consistent and being focused on the South Sudan. 
Can you elaborate for me? What do you need from the United 
States?
    Bishop Hiiboro. Well, what I mean is that in the report 
that we have gone through with the support of the United 
States, we have concerns about how much efforts that we could 
keep on the momentum, the kind of system we have in our 
country. An example--that is one of the few that I can 
highlight. With the peace agreement in 2005, there was a little 
bit of silence not only from the United States but also from 
the international community. Until 2008, when we were close now 
to the election, a lot of efforts came out for which I 
appreciate. But I think--the issue of Sudan has been on the 
agenda for so many years. So I would think that with the birth 
of the new country that is coming, efforts could be done both 
from the Sudanese side and from our friends, from the United 
States, to get this issue finished on the world agenda is what 
I meant.
    Thank you.
    Ms. Buerkle. Thank you. To all four of our panelists, I 
would like for you to comment. I think you all heard me ask the 
Ambassador what he felt our leverage was as a country to get 
the North Sudan to cooperate. If you could comment on that and 
if you feel there is other things that we could leverage as 
well.
    Ambassador Winter, if you would like to start. I know you 
have a time constraint.
    Mr. Winter. I have never fully understood Khartoum's way of 
thinking. So I may be off base. But obviously they were looking 
for at the very beginning of this process--you are talking a 
decade ago where we had a relationship on intelligence and 
those kinds of things with them, still do to some degree, I 
guess. But I think--this is my personal view--that they were 
looking for a relationship and they were willing at least to 
enter a process of negotiation that would produce something, an 
agreement which would benefit them. I personally think that 
that changed and changed seriously in the summer of 2005. In 
the summer of 2005, several things happened that were key to, I 
think, how they shifted.
    First of all was that on the 8th or so of July of that 
year, Dr. John Garang went to Khartoum for the first time in 
several decades of the war. When he went there, a group of the 
lowest number that I have heard, it is like 5 or 6 million 
people, showed up to greet him. They were not just Southerners. 
They were Southerners, they were Northerners, they were from 
Darfur, they were from Beja in the east and all over Sudan 
because there was a hunger on all kinds of people in Sudan for 
a new governance arrangement. I think that kind of turnout, 
which was not all Southerners, his perceived constituency, 
because of his arguments for a new Sudan, the fact that so many 
people of so many different kinds showed up, I think put the 
fear of God in them about what the possibilities were under an 
arrangement that the CPA required and he was going to be Vice 
President of the entire country.
    Then, less than 4 weeks later, he was dead. He died. And I 
think his death divided--having seen the scare of all these 
people coming out and supporting basically his policies, the 
fact that he died in the helicopter crash opened up the 
possibility of actually eventually backing off of all of the 
key commitments that they had in signing the CPA, and that is 
why it has been such a rough road and continues to be right 
now.
    That is my view.
    Ms. Buerkle. Thank you. Ms. Wilkins.
    Ms. Wilkins. Well, I have to respectfully disagree with the 
Ambassador's opinion of agreements because I do think that 
agreements, getting commitments down on paper, can be very 
important and can be a useful point of leverage. Now of course 
the agreement that jumps out to me is this new oil deal in 
particular, which has additional points of leverage. The North 
is very reliant on the oil revenues and it would be a massive 
blow--they would collapse without some share of these revenues. 
And that is one place to start in saying, great, well, if we 
are going to come together in this agreement, which they have 
to, you need to be transparent in how we are managing this. And 
that is one way to exercise leverage.
    Ms. Buerkle. Thank you. Dr. Eibner.
    Mr. Eibner. Thank you. The Special Envoy outlined a number 
of areas where we have great leverage and that is a fact. We do 
have leverage, but it is not obviously enough to make Khartoum 
fall into line with what the United States wants to do. And I 
see little--that there is little space between actually regime 
change and negotiating or having discussions with Khartoum on 
the basis of their interests, which is what the Special Envoy 
emphasized, the American strategy is to not like them but 
simply try to identify their interests. And if there are 
interests that are compatible with ours, then we try to reach 
some agreement. This obviously happened in the case of the CPA, 
according to President Salva Kiir of Southern Sudan, over 90 
percent of the CPA has been respected all of these years and we 
would not have the prospect of an independent Southern Sudan 
were it not for the possibility of many agreements being 
respected. But it is not for me to say whether there should be 
regime change and whether the United States is in a position to 
exercise that and to do it effectively and then do it in the 
right way that doesn't create more killing, displacement, and 
enslavement or whether we have to proceed on the basis of the 
strategy outlined by the Special Envoy and one that its 
predecessors have followed.
    Ms. Buerkle. Thank you. Bishop Hiiboro.
    Bishop Hiiboro. My reading of the situation, I would think 
that if you really have a stable North, then that would also 
hold the peace for the South. So decisions that we can take 
regarding the government in the North Sudan have to be also 
very much weighed again in South Sudan. And so the regime 
change definitely I think I can speak about, but that has to 
come from within. And also the level of discussions going on 
with the government and the Special Envoy to Sudan should also 
a little bit get down to the grassroots. And so--get the people 
involved. To my thinking, maybe the--the discussion is a little 
bit very high. So getting the people on the ground involved I 
think would be able to provide a possibility for understanding 
the situation and finding out a solution to the problem in the 
Sudan.
    And finally on the same and looking at the issue of the 
implementation of the CPA, we had already foreseen these 
things. People are already aware that if some of those elements 
were not implemented, we are going to have a conflict even 
before the referendum. And that was sort of like, no, we pay 
attention to the referendum to succeed, then we shall come to 
talk about Abyei. But I think the time has come and past and 
now we are already in violence. So therefore the moment I would 
think that more groundwork needs to be done involving the 
stakeholders and the current leaders and to see the best way 
they can be able to resolve the issue. I don't think the people 
in the North need violence. They need peace, too.
    Ms. Buerkle. Thank you very much. I yield now to the 
ranking member, Mr. Payne.
    Mr. Payne. Thank you very much. Ms. Wilkins, what is your--
in a nutshell, how do you see the plan for South Sudan's oil 
sector going--you had some points that you had made before. 
What were they again real quickly that you would like to see?
    Ms. Wilkins. Of course. Of what the United States can do, 
action points for example?
    Mr. Payne. Right.
    Ms. Wilkins. Wonderful. Back to what the Special Envoy was 
saying about how the U.S. and Norway are now beginning to do 
some capacity building in the Ministry of Finance and the 
Ministry of Energy. That is a great step. What I would really--
I would very much like to add to that, though, is the other 
aspect of accountability and the real technical support and 
capacity building for the Legislative Assembly to be able to 
monitor how the ministries are functioning and how the 
ministries are actually managing the sector.
    And in addition, I had mentioned it earlier in my 
testimony, but capacity building and technical support for the 
petroleum directorate which the Auditor General intends to 
create. And of course capacity building for civil society. That 
is going to be huge. And as of yet, no donors appear to be 
stepping forward and saying we are going to take a real lead on 
building the capacity of local civil society groups to take an 
active role in the management of the petroleum sector. I 
believe that is a real oversight.
    Mr. Payne. Let me just ask a question. You were saying that 
you felt the government of--the Khartoum government showed, I 
guess, good faith. You said the CPA went through and that you, 
I guess, had faith in them. Do you have any way to know that 
the--even their accounting of the oil accounts? I mean, you 
have talked about the South. They say they pumped 10,000 
gallons last hour. Have you looked to Khartoum, have you 
questioned them about is there a real meter that you can see 
and that it is going--have you taken any kind of a look--
because you seem to have a lot of confidence that they are 
going to do the right thing, although they have just broken 
every sort of agreement that they have made?
    Ms. Wilkins. No, I wouldn't say I have a lot of confidence 
that they will do the right thing here. No, no. I disagree with 
the importance of agreements. I think that getting commitments 
down on paper is very important even if the----
    Mr. Payne. But they have been broken as much as they have 
been written. And it is great to have it written because at 
least there is something to work from.
    Ms. Wilkins. Yeah. Something to hold people to. And I think 
that that is where it is really important.
    Mr. Payne. I mean, Darfur, they have broken every single 
agreement they made.
    Ms. Wilkins. No. Certainly. But I think that is why we have 
to chase them on things like the audit of the current oil 
sharing agreement which they agreed to do last year, or in 2009 
rather. And progress is actually moving ahead on that audit 
happening. They are waiting now to choose a company, an 
international, credible auditing firm to conduct the audit. And 
that is where you step in on verifying. Because I agree that 
both parties, the North and the South, can agree to implement 
this, any new agreement, effectively and transparently, but it 
is about independent verification.
    Mr. Payne. Thank you. Bishop, the LRA continues to exist. 
And once again in Sudan, the government has continued to 
support them as they move along. This group should have been 
eliminated 20 years ago. They still roam around. Do you feel 
that with the new Government of South Sudan that that should be 
a priority for them or do you think that the Bashir government 
will continue to support the LRA, and would that be some 
conflict between the North and the South as they try to deal 
with the LRA?
    Bishop Hiiboro. Thank you. The issue of the LRA definitely 
is a very serious issue for Sudan and especially the region 
where I come from, he--that is where he operates, within the 
area where I live. And so we are only amazed too at the 
situation of the LRA that has continued for so many years 
without any proper solution. We wonder about how they get their 
support, how they are sustained and how--they also carry out 
their activities with a very high degree of military hardware. 
No one knows definitely. I cannot say. I only maybe want to 
speculate. We don't know where they get their supplies from. 
But all we know and I know that every day as I speak in my area 
there are continual raids on the population and attacks on the 
population, abducting, looting, killing. And this is causing a 
lot of displacement. And so I hate to think that it has even 
gone beyond an international issue. It is a regional issue that 
involves Uganda, Congo, Central African Republic, and the Sudan 
and also the international community. And my worry is that the 
continued presence of the LRA in the forest, with that kind of 
maximum support of them from a source I don't know, there could 
be a time bomb for the destabilization of South Sudan or 
anybody. Anybody with the terrorist oriented activities can buy 
them and can use them for anything that they would wish.
    So I am hoping and so many others are hoping that with the 
birth of the new country, probably an initiative will be taken 
by the Government of South Sudan to involve the other countries 
because they have gone across the border, and to control them 
and in these collective efforts, a regional approach and also 
international.
    Mr. Payne. Thank you. Thank you very much. Dr. Eibner, we 
listened to your testimony and I certainly have to commend the 
CSI in the early days when they exposed the whole question of 
abductions and other advocates who played an important role in 
exposing the extension, the existence of slavery and people 
being enslaved. There then became a debate, you may recall, 
with UNICEF that had some question about the fact that what had 
gone on initially to a smaller degree tended then to be 
amplified because when the redemption program came in, it kind 
of created--it created an industry actually. Some alleged that 
because there was money now to buy back abducted people, that 
it heightened the abductions because millions of dollars came 
in as a new industry. And then actually even some reports got 
into the fact that the money--there was corruption on the part 
of some people involved in it. And I know that there were 
restrictions imposed by the SPLM on the CSI.
    And I just wonder--I think we do need to take account of 
people in the North; it is going to be very difficult to track 
abducted people who are in the North. I think that in the 
South, the Government of South Sudan, if there are still 
remnants of that, I am sure that would probably still be a part 
of the social services.
    So, you know, there are so many gigantic problems going 
forward, it seems as though that you are saying that this is 
one--I assume a looming overwhelming problem in the scheme of 
things in Sudan. I just kind of wonder to the extent to which 
the situation still exists.
    Mr. Eibner. Thank you very much for the opportunity to 
respond. First of all, there has been no evidence of any 
credible sort from any--from UNICEF or anyone else about 
fueling the slave trade that it has made, that more people have 
been taken into slavery than otherwise would be the case. In 
fact, all of the evidence that I am aware of points to the 
contrary, that slavery has actually decreased to the point 
where they are not happening today. And I am sad to say that 
those who failed to address the slavery problem, those who knew 
about it back in the 1980s and failed to address it come up 
with these kinds of things as a cover for their own 
inadequacies and failure to address crime against humanity.
    And in terms of corruption and such allegations, you quite 
rightly say there are allegations and I would be delighted to 
have really hard evidence about really anything that we do in 
Sudan that is not helpful. And I can assure you that if I had 
hard evidence, I would look into it very thoroughly and we 
would make sure that all of our operations are either conducted 
in a way that is helpful to the victims and the victimized 
communities or stopped if we were to feel that they are in some 
way harmful.
    And I must say I am not aware of any restrictions that the 
SPLA has put on CSI in terms of its operations. If you are 
aware of any restrictions, please let me know and we will try 
to abide by whatever regulations Juba has. But CSI operates 
fully in conformity with the law in Southern Sudan and the 
wishes of the authorities. And it would be very unfortunate if 
people were to think that that were not the case because it is. 
I believe that the slavery issue is extremely important today 
both because of people that are still apparently enslaved. They 
are human beings, human beings like the lady Achol Deng that I 
mentioned, and today there may be somebody whose genitals are 
removed, somebody who is executed because they displeased a 
master. This is important and we want to find ways to get them 
back.
    That is important just on humanitarian grounds. Slavery is 
a crime against humanity, and it cannot be just marginalized in 
the political debate in Sudan. But there is another reason and 
that is why I mentioned Francis Deng and the ``War of Visions'' 
because there is something that fuels this cruelty, this 
slavery, and it is related to the different visions and the 
competing visions. And one vision is based on racism and 
religious bigotry that will justify this kind of appalling 
behavior in the minds of perpetrators, and this needs to be 
addressed as a part of the political debate on Sudan.
    Already there has been some mention of regime change, and 
this is not something I wish to get into but I think everybody 
has to understand that slavery wasn't invented by Omar Bashir. 
The slave raids got underway in earnest in a very serious way 
when there was what people call a democratic government in 
Khartoum that was a coalition government. All of the so-called 
democratic parties were involved and they were the ones who 
were really responsible for setting this in motion. This 
problem goes much deeper than a particular leader, a particular 
party in Sudan. And if we are really serious about bringing 
sustained peace to Sudan and enabling peoples, whether they are 
in two separate states or three states or whether they are 
united, to be able to live together in peace and harmony, then 
we have to address these issues. And slavery symbolizes that.
    I believe that you were probably in Juba at the time of the 
referendum, and I am sure that you saw all of the campaign 
posters for the independence of Southern Sudan. And it was to 
prevent slavery and to enable us to develop--vote for 
independence. Slavery is an important issue in the hearts and 
minds of Southern Sudanese, and it is something that we address 
and we err if we just sweep it to the margins of political 
life.
    Mr. Payne. Well, I am not saying we should sweep anything 
anywhere. All I am simply saying is that we have oppression 
throughout the world. I mean, we could almost call slavery here 
in the United States if you want to use that term. I just think 
the term is used a little loosely because it is used in some 
places and not used in other places. We ought to have a 
definition of the way that exploitation--you can go to India, 
you can go to Brazil, you can go to Alabama with the chain 
gangs where people wear chains and they work on farms and they 
get no pay and they work 10 hours a day and they are given poor 
meals. And so all I am saying is that we have inequities and 
abuses that are worldwide, China, Brazil, the Caribbean, 
Indonesia, where you have sex trading that goes on in 
abundance, even the border of Burma. I went to Burma while 
going to China. You would be surprised, you wouldn't think that 
prostitution and gambling occurs right up there. But they use 
other terms.
    And I would like to follow up with you because I do have 
some information that I would like to get to you since you said 
you are unaware it of and I think we could perhaps set up a 
meeting at another time.
    Just one last question since my time is really over, Mr. 
Winter, if there could be some immediate things that our 
Government could do to try to get this situation--and let me 
also recognition Mr. Joe Madison, who had gone to Sudan many 
times, went on a fast and really did much and is a radio 
personality and has done a tremendous amount to get on the 
airwaves way back when not many people were talking about 
Sudan. So thank you for being here, Mr. Madison.
    What would you do immediately if you were a Special Envoy? 
What would you suggest to Mr. Obama that should be done now 
because I am really concerned about what is going on?
    Mr. Winter. First of all, I wouldn't want to be said 
person. There is at this point no clear simple answer to that, 
a quick answer. We have been talking for 11 years. Everything 
has been said. I mean, the CPA process started in 2001. This is 
2011. Everything that can be said pretty much was said. The 
question is, what do we do? And that I think is the weak link 
in the thing. So if you want to go back--you can go back, for 
example, in the case of--we have been doing a lot of talk about 
Abyei and I always stand corrected to the other people--to be 
corrected by other folks on the panel.
    But just to raise the issue of the mobilization by Khartoum 
of the Misseriya people, not for the Misseriya people's 
benefit, but for Khartoum's benefit. If you have a government 
that deals with--for their good that actually divides 
populations against each other, something is dramatically wrong 
now. When we were talking about slaves in the 1980s, it was the 
so-called Murahaleen that were doing most of that slave raiding 
with the complicity of people in the government.
    Now, the Murahaleen consisted of two primary groups. One of 
them was the Misseriya. The Misseriya are the same people who 
under the auspices of Khartoum burned down Abyei in 2008, and 
that have been consistently harassing. The 31st Brigade of the 
Sudan Armed Forces is one of those military units that does the 
attacking and the violence in the Abyei area. The whole 
discussion about the kind of thing I referred to earlier about 
Special Envoy Gration in my written testimony about what he was 
trying to do to benefit the Misseriya was this same population 
that was one of the primary enslaving populations.
    Now, the truth of the matter is that the Misseriya people 
definitely need a lot of help, but the way it has been handled 
by Khartoum doesn't ultimately help the Misseriya people. For 
example, the Misseriya people, by the way, have their own 
homeland. It is a large one. It is headquartered by Mugled, the 
town of Mugled. They bring their cattle down into Abyei, 
historically with agreements with the Ngok Dinka, for water and 
pasture and a lot of them pass through Abyei further into the 
south. Giving them a little more chunk of Abyei doesn't really 
solve most of their problem because they need to go further 
south. So it is not--what Mr. Gration was doing was not solving 
a problem, but he was moving the goal line further south, which 
was problematic. And what I would say is that the issue of the 
entitlement that the Special Envoy was trying to do to create 
by saying they should have part, equal responsibility for the 
northern part of Abyei, really that is not at all the kind of 
thing that the whole CPA was about.
    The Abyei Protocol is focused on the issue of residence. 
People can get to vote in the referendum on Abyei's status if 
they were residents. They had to include the Ngok Dinka 
community because that was their traditional homeland. But 
beyond that, any other residents--and there actually are 
Misseriya who are residents in Abyei. And nobody, including the 
Ngok Dinka, have any problem with those people voting in an 
Abyei referendum. But what Khartoum has been trying to do is 
get the whole large part of the Misseriya population to move in 
and claim residence.
    Now, keep in mind, they have a homeland area in which they 
spend most of their time, normally around 8 months out of the 
year. So up to 4 months of the year they may pass through 
Abyei. Well, to say they should be able to keep their own 
homeland and then have parts of somebody else's homeland seems 
something is wrong with that formulation.
    So this whole process is a process that is being, in my 
view, manipulated by Khartoum for Khartoum's benefit but isn't 
really solving the situation. And they are justifying it by 
saying--as I say in my written testimony, it would be like--
since I live in Maryland, and I am a resident of Maryland and I 
can vote in Maryland because I am a resident, it would be like 
saying, well, the Misseriya, since they live north of Abyei, 
the area headed by the sort of capital town called Mugled, they 
are residents there for at least 8 months of the year and they 
can vote there. But because they go for up to 4 months and pass 
through Abyei, well, they should be able to vote there also in 
the referendum. And it is like me, I live in Maryland, but if I 
go and spend summer months on the ocean beaches in Delaware 
should I be able to say I am a resident of Maryland and a 
resident of Delaware and therefore I can vote in Maryland and I 
can also vote in Delaware?
    That is the kind of thing that is really underpinning the 
conflict and the way it is being handled by the Khartoum 
government now. It doesn't hold any water.
    Mr. Smith [presiding]. Thank you. In your testimonies, 
which you have really laid out I think very clear and concise 
and compelling recommendations, you have really anticipated 
many of our questions, although members may have additional 
questions they would like to ask. I would like to ask one final 
question and just--is there anything you heard from Special 
Envoy Princeton Lyman on which you might want to comment on, 
having sat through his testimony a few moments ago? For 
instance, Dr. Eibner, he did agree that he would more robustly 
look into the issue of slavery, and when I talked to him on the 
way out, he reiterated that commitment. If there is anything 
anyone would like--yes, Ms. Wilkins.
    Ms. Wilkins. Yes, I would just add that, I said it before. 
It is wonderful that they are putting in advisers in the 
Ministry of Finance and the Ministry of Energy, but it is very 
important that the donors, led by the U.S., also focus on 
building the technical knowledge and capacity of the 
Legislative Assembly and of the Auditor General's office. To 
only focus on the ministries which are actually doing the 
management would risk undermining accountability in the 
government.
    Mr. Smith. Thank you.
    Mr. Payne. Let me comment on that there. There is a group 
called the House Democracy Assistance Commission here headed by 
Mr. David Dreier, and that is exactly what they do, they select 
new or re-emerging Parliaments. And they just came back from 
Mongolia and Georgia, countries that have had a transition. We 
have already discussed the possibility of the commission 
expanding to one other country in South Sudan. So I do 
believe--and they have focused strictly on the legislative 
branch, which in many countries are very weak. I mean, the 
executive has the power to have the staff, the budgetary. And 
so that is what we had discussions already about.
    So that is a good point. Thank you.
    Mr. Winter. I said before that we have been talking for 11 
years on this agreement and its implementation. I suggested in 
my written statement that it is time to take an action. And I 
never foresaw myself ever suggesting such a thing. But my 
concern is that this situation can become a train wreck, a 
train wreck that influences the lives of millions of people in 
southern North Sudan and in South Sudan. And we are the prime 
entity in the whole process. And if anybody is going to take an 
action, it would have to be us; it is not going to be Norway. 
It is not going to be Holland, you know. Somebody else. And I 
think if you look at the calendar and the state of affairs, we 
are at a significant risk of failure. Not a failure on having a 
separate South, but having a separation that becomes even after 
separation a train wreck for many, many, many people of South 
Sudan and Northern--the south part of Northern Sudan.
    Thank you.
    Mr. Payne. Yes, Bishop.
    Bishop Hiiboro. One of the points from the Special Envoy 
which I felt he should highlight is the post-referendum 
arrangement committee that has been set. So I think it will be 
necessary at this point because the time is already close. We 
are already getting to July 9th and the negotiation will be 
new. It will be between the two countries discussing issues 
that have led to peace. But the post-referendum committee that 
has been put in place, it should have been much earlier. I 
would suggest that the Congress should put its energy very much 
behind this because it is going to resolve those issues that 
can pull the country into serious danger, that can pull the 
country into war. With that, we would be able to halt, to halt 
issues that could lead to war.
    Additionally, Mr. Payne said he was able to speak with the 
President yesterday, Salva Kiir, and he said he is exercising 
maximum calm, not to turn to violence. I think it is an 
opportunity that can be used at this very moment to address the 
many issues. But after July 9th, from the 10th onward, then I 
think the language could easily change. So I think the highest 
time is for the U.S. Government to throw its authority behind 
the committee and those things that are left should be well 
resolved before that time.
    Thank you.
    Mr. Smith. Thank you.
    If there are no further comments, I want to thank our 
witnesses not only for your insights and counsel and for the 
work you do, but for being so courteous for allowing Princeton 
Lyman to present his testimony because of his schedule because 
I know you all have schedules as well. I deeply appreciate that 
courtesy extended to him and to us.
    Thank you, and the hearing is adjourned.
    [Whereupon, at 5:20 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
